<html>
<title> - THE END OF REEDUCATION THROUGH LABOR? RECENT DEVELOPMENTS AND PROSPECTS FOR REFORM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
THE END OF REEDUCATION THROUGH LABOR? RECENT DEVELOPMENTS AND PROSPECTS 
                               FOR REFORM

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2013

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-853                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRIS SMITH, New Jersey, 
MAX BAUCUS, Montana                  Cochairman
CARL LEVIN, Michigan                 FRANK WOLF, Virginia
DIANNE FEINSTEIN, California         MARK MEADOWS, North Carolina
JEFF MERKLEY, Oregon                 ROBERT PITTENGER, North Carolina
                                     TIM WALZ, Minnesota

                     EXECUTIVE BRANCH COMMISSIONERS

                            To Be Appointed

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)

                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Brown, Hon. Sherrod, a U.S. Senator from Ohio; Chairman, 
  Congressional-Executive Commission on China....................     1
Belkin, Ira, Executive Director, U.S.-Asia Law Institute, New 
  York University School of Law..................................     2
Lewis, Margaret K., Associate Professor of Law, Seton Hall Law 
  School.........................................................     6
Li, Xiaorong, Independent Scholar................................     8
Wu, Harry, Founder and Executive Director, Laogai Research 
  Foundation.....................................................    11

                                APPENDIX
                          Prepared Statements

Belkin, Ira......................................................    26
Lewis, Margaret K................................................    31
Li, Xiaorong.....................................................    35
Wu, Harry........................................................    41

Smith, Hon. Christopher..........................................    43


THE END OF REEDUCATION THROUGH LABOR? RECENT DEVELOPMENTS AND PROSPECTS 
                               FOR REFORM

                              ----------                              


                         THURSDAY, MAY 9, 2013

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 11:03 
a.m., in room 562, Dirksen Senate Office Building, Senator 
Sherrod Brown, Chairman, presiding.
    Also present: Lawrence Liu, Staff Director; Paul Protic, 
Deputy Staff Director; Anna Brettell, Senior Advisor; and Jesse 
Heatley, Senior Research Associate.

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
  OHIO; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Brown. The Commission will come to order. Thank 
you for joining us, those in the audience and the panelists. I 
appreciate Ms. Lewis being back with us. She was in our first 
panel. I appreciate your being here. You were on our first 
panel that day, too. Thank you, Ira for joining us. Mr. Wu, 
thank you for your 30 years of engagement with us and beyond 
and the courage you have shown as we have moved forward.
    I particularly want to thank the excellent staff of the 
Commission, starting with Lawrence Liu and the good work he's 
done, and Jesse Heatley, David Petrick, Jen Salen, Abbey Story, 
Judy Wright, Dee Jackson, and Sarah Mellors. Thank you for the 
work that you do. As you all know, in this place, that's where 
most of the work is so often done, it is very good staff work.
    I have been involved in this Commission and other Chinese-
American relations and labor issues and human rights issues for 
a decade and a half or so now, and you can see, I think, on 
this issue we are discussing today, on reeducation through 
labor camps, the work that others have done as there is 
evidence--there is beginning to be some evidence that China may 
be looking seriously to change their policies, and maybe it is 
partly an economic issue to them, it is partly a human rights 
issue, it is partly an issue of, they are on the world stage 
more and more prominently and the People's Republic of China, 
the government, understands that being on the world stage and 
the light that this Commission and others have shown on them 
really does matter in changing behavior.
    So when a number of people sitting on both sides of me, 
they do not seem the type to be discouraged, but I know that we 
all have moments of being discouraged when things seem so 
sometimes black and white, or certainly when issues of justice 
come up, that we really are, this Commission and the four 
people, or five people really, that flank me and the staff 
behind me really has had a significant impact on behavior there 
and I am so appreciative of that.
    I want to introduce the four panel members. I can only be 
here for about 20 more minutes, and I apologize for that. None 
of us put quite the time that those of us elected--Chris Smith 
does a terrific job on this. None of us put quite the time we'd 
like to in this. But I will introduce the four panelists and 
stay for a while, listen to their opening statements, and then 
Mr. Liu will go from there.
    Ira Belkin is executive director of the U.S.-Asia Law 
Institute at the NYU School of Law. He is an accomplished 
public servant and advocate for the rule of law in China. He 
was a Federal prosecutor for 16 years and served two tours at 
our Embassy in Beijing. He is a program officer at the Ford 
Foundation in Beijing, where his grantmaking supported the 
kinds of institutions that are so important in the rule of law, 
working to build their legal system and strengthen the rights 
of especially vulnerable groups.
    To my immediate right is Margaret Lewis, Associate 
Professor of Law at Seton Hall, also in New York State. She is 
a member of the Council on Foreign Relations and Affiliated 
Scholar at NYU's law schools, the U.S.-Asia Law Institute and 
Public Intellectuals Program Fellow with the National 
Commission on U.S.-China Relations. She has written numerous 
articles that have appeared in top journals. Professor Lewis 
served as a panelist, as I earlier said, in our roundtable, I 
guess, two years ago, something like 2011.
    To my left is Xiaorong Li. Ms. Li is a longstanding human 
rights advocate and has published numerous articles on diverse 
subjects ranging from ethics to democracy. She is recently a 
Research Faculty Member near here at the University of 
Maryland, College Park. She shared her expertise before the 
Commission on a number of occasions.
    To my far left is one of my heroes, Harry Wu. Not that you 
three, the rest of you, aren't, too. But the Founder and 
Executive Director of the Laogai Research Foundation based in 
Washington, a victim of China's prison labor system. He has 
devoted his life to advocating for human rights in China. His 
groundbreaking research helped expose the cruelties, perhaps 
more than any single individual, of the legal system. Thanks to 
the four of you.
    We will start with Mr. Belkin.

  STATEMENT OF IRA BELKIN, EXECUTIVE DIRECTOR, U.S.-ASIA LAW 
          INSTITUTE, NEW YORK UNIVERSITY SCHOOL OF LAW

    Mr. Belkin. Mr. Chairman, thank you very much. 
Distinguished members of the Commission and staff, ladies and 
gentlemen, I appreciate the opportunity to participate in 
today's roundtable. I also want to take the opportunity to 
acknowledge the importance of the Commission's work, especially 
your annual reports and periodic roundtables. They have made a 
great contribution to our understanding of China, as well as to 
improving human rights and rule of law in China.
    Of course, the opinions I express today are my own, but I 
also represent the U.S.-Asia Law Institute at the New York 
University School of Law. I am proud to have Professor Margaret 
Lewis as an alumnae and a non-resident scholar. We do research, 
we do constructive engagement with China. Our institute was 
founded by Professor Jerome Cohen, who is a mentor to almost 
everyone in this field and a consistent advocate for both human 
rights, rule of law, and engagement with China.
    I have been asked to talk about the overview of reeducation 
through labor, its history, its current use, the debate within 
China about reform, and recommendations for the U.S. 
Government. That is a lot to cover in five to seven minutes, 
but I'll do the best I can. I have prepared written remarks, 
but for time's sake I will just try to highlight some of those 
points.
    The crux of reeducation through labor is that it's been a 
system of administrative detention with no judicial review, 
where the police have the authority to send someone to a 
reeducation through labor camp, to incarceration, for up to 
four years based on a very vague set of standards and, again, 
with no judicial process.
    So although China has made tremendous progress since 1979 
in improving its criminal law and criminal procedure law, 
administrative punishments like reeducation through labor 
provide a way out of the formal legal system for citizens to be 
punished for extensive periods of time without much process.
    Historically, the system started in the 1950s during the 
early years of Chairman Mao's rule, and while it could be 
criticized at that time, at least within the context of the 
1950s, the flexibility that it provided made some sense within 
that context.
    At the time, as Chairman Mao famously had said, there are 
contradictions among the people and contradictions with 
enemies, and reeducation through labor was a way to deal with 
people who were enemies of the state and enemies of the Party.
    The rules that surround reeducation through labor, even to 
this day, reflect that 1950s sense. When we think about China 
in 2013, this seems like a system that is very much out of 
date.
    The system of reeducation through labor has never had a 
legislative basis, it's never been supported by legislation 
from the National People's Congress. It has a basis in orders 
from the State Council and regulations from the Ministry of 
Public Security. These go back to 1957.
    The State Council rules were amended in 1979 and again in 
1982, and then the Ministry of Public Security has issued 
regulations again in 2002 and 2005. I won't go through the 
details of those; they are in the remarks, and certainly the 
regulations are public.
    In the 1950s, it seemed that reeducation through labor was 
used primarily as a political tool to identify counter-
revolutionaries, people who were enemies of the Party, and was 
a way to incapacitate them, incarcerate them, or reform them 
through labor.
    Over time, the way that reeducation through labor has been 
used and supported has changed and now it is considered to be, 
by its supporters, a way to maintain social stability. It 
certainly continues to have the flexibility--or one might say 
arbitrariness--to cover a whole range of conduct, basically 
anything that the police would consider to be troublemaking, 
but it's been used, from the reports that we've seen, for drug 
addicts, for people involved with prostitution, for people 
involved in minor offenses that do not rise to the level of a 
criminal offense, but also can be used, as I said, to suppress 
political dissent. It has been used against followers of Falun 
Gong as well.
    Over the years there have been many efforts by reformers in 
China to either abolish the system or reform the system and in 
prior years it has come very close to reform, but the reforms 
have never been completely successful.
    Earlier this year in January we heard from Mr. Meng 
Jianzhu, the chair of the Political Legal Committee of the 
Communist Party, which oversees the legal system in China, that 
reeducation through labor should not be used this year.
    There had been rumors circulating that reeducation through 
labor reform was on the agenda of the new leadership and that 
was the first public statement from a high-level leader that we 
heard that, indeed, the system seemed to be being prepared for 
reform. I think that the new leadership deserves credit for 
taking this on and taking it on publicly.
    A few months later, at the press conference after the 
National People's Congress Premier Li Keqiang, in response to 
reporters' questions, said that the relevant institutions in 
China were preparing plans for reform within the year. So it 
seems like this is a moment when reform might happen. Within 
China there is a diversity of opinions about how the reforms 
should take place.
    In my written remarks I just highlighted Chinese legal 
scholars who are, I guess, at different ends of the spectrum. 
One, Liu Renwen from the Chinese Academy of Social Sciences, 
advocates for the abolition of reeducation through labor and he 
makes a lot of the arguments that those in favor of abolition 
have made. First, that reeducation through labor is really an 
unlawful system under Chinese law.
    Under the Chinese legislation law which was passed in 2000, 
any law that limits the freedom or liberty of citizens must be 
passed by the entire National People's Congress. As I said, the 
reeducation through labor system was never supported by the 
full legislation of the National People's Congress. He also 
argues----
    Chairman Brown. May I interrupt for one second?
    Mr. Belkin. Sure.
    Chairman Brown. Was it spoken about in any kind of 
defending of in any way by prominent leaders of the 1950s, 
1960s, 1970s, by Mao and others, or Lin Biao, or anyone 
defending it or speaking about it or was it just ignored? I 
understand the People's Congress didn't sanction it, if you 
will, or make it ``legal.''
    Mr. Belkin. Right.
    Chairman Brown. Was there any of that?
    Mr. Belkin. Well, it certainly is part of the system and 
it's an officially sanctioned system. Many people have defended 
it, including many legal scholars. But in 2000, China, as part 
of its efforts to establish the rule of law and to use 
legislation, kind of limited itself and said if we're going to 
limit people's liberty we're going to have to do it through 
legislation. My own view is that they probably had in mind that 
reeducation through labor would be abolished soon, but in fact 
it wasn't. This was in 2000. But it wasn't abolished.
    There are those who argue, including the Ministry of Public 
Security, that it is lawful under Chinese law. I think those 
who say it is not have the better argument. Certainly the 
government--there is no mechanism under Chinese law for 
citizens to challenge the legality of the system under Chinese 
law, which is part of the problem.
    So it's not an illegitimate system, it's not a rogue 
system. There are other forms of detention, like ``black 
jails,'' or soft detention, that don't seem to have any 
regulatory basis at all but are allowed to exist. But 
reeducation through labor, you can find information about it on 
the Ministry of Justice Web site. It is a recognized system.
    I think Chinese leaders would say that China is a country 
in transition, with a legal system in transition. I hope that 
answers your question. I can't cite specific quotes of the 
leadership, but clearly it's a system that has been allowed to 
continue to today.
    So part of the debate in China is the legality of the 
system. Also, under the Chinese Constitution, there are 
provisions that say no one can be deprived of their liberty 
without a decision by a court. China's Constitution is not 
self-executing, but scholars are pointing to the Constitution 
as a basis for arguing that the system is illegal.
    They also make the argument that China's criminal law is 
now well developed. There is also a public safety 
administrative punishments law. Between the two, there are a 
whole host of remedies, from probationary sentences, fines, 15 
days in jail up to a life sentence, and capital punishment. 
There is no need or space for another administrative system 
that gives the police a maximum level of flexibility. So, those 
are the arguments for abolition.
    Others say, well, the system could be changed, legislation 
could be passed to give it a legislative basis. Maybe it could 
be limited to two years and there could be a judicial review or 
a quasi-judicial review.
    So even those who will support the system, I think, there's 
a consensus that there's a serious problem with the legal basis 
for it, the process, but there is no judicial review, and the 
vagueness of the standards.
    Those who would say it shouldn't be abolished are proposing 
a new kind of law, what's called an Illegal Behavior 
Corrections Act. They say that there is still a need for some 
system to punish habitual offenders. So that is the current 
debate in China, which is quite lively. It's been going on for 
some time. That is a summary of it.
    I will just wrap up with the last point. I was asked to 
talk about recommendations for U.S. Government policymakers. 
Here, I will just make a couple of quick points. There is a 
limit to what those outside of China can do. China is a 
sovereign nation and will make its own decisions and pass its 
own laws. But I think China, as part of the world community, 
other countries have a right and obligation to hold China to 
its own standards of establishing the rule of law and human 
rights.
    I would just say, in using the tools that the U.S. 
Government has at its disposal, diplomacy, supporting 
exchanges, I would just say that, number one, we should expand 
our view. Reeducation through labor gets a lot of attention, 
but as I mentioned there are other forms of detention, 
administrative and otherwise, that should be part of the 
conversation.
    Second, I think we need to be more persistent and more 
consistent in using all of our tools. We tend to focus on 
short-term goals, understandably. This is the nature of the 
work in the government, that every time we spend effort and 
spend money, we want to be held accountable for that. But this 
kind of legal reform takes more time and we need to be more 
persistent and more consistent in our approach.
    I am sure I have used up my time so I will just conclude my 
remarks. Again, thank you for the opportunity to comment.
    Chairman Brown. We appreciate that.
    Ms. Lewis?
    [The prepared statement of Mr. Belkin appears in the 
appendix.]

  STATEMENT OF MARGARET K. LEWIS, ASSOCIATE PROFESSOR OF LAW, 
                     SETON HALL LAW SCHOOL

    Ms. Lewis. Mr. Chairman, thank you for inviting me to 
participate in this panel. I would like to thank the staff as 
well for all of their hard work. In fact, I was grading papers 
on the way down here and my students in my China law class 
regularly cite the work of the Commission, so we are very 
grateful for what you do.
    But with respect to today's topic I am going to be focusing 
on the reform aspects. In particular, I've been asked to talk 
about how Taiwan's experience might be relevant to this 
discussion about reeducation through labor, or RTL, in the 
mainland. I have also provided the Commission with a more 
detailed written statement.
    Much of my discussion of Taiwan grows out of work that I've 
done with Jerry Cohen as part of NYU Law School's U.S.-Asia Law 
Institute's project looking at legal reforms that have happened 
in Taiwan over the last 25 years. Today I get to be the 
optimist--as we said, we are optimists up here--and deliver a 
hopeful story for reform based on Taiwan's experience.
    Taiwan's form of ``reformatory training,'' as it was 
called, was for people deemed ``hooligans,'' or ``liumang'' in 
Chinese. It's not easy to translate and capture it fully, but 
it was a system that was gradually reformed in order to 
restrict police power and offer greater procedural protections. 
It was ultimately abolished in 2009.
    It was formerly a non-criminal sanction or, as I like to 
think of it, a quasi-criminal sanction like RTL, and it allowed 
police in Taiwan to lock up these vaguely described hooligans 
originally for an indefinite period of time, and then that was 
changed to three years after the martial law period.
    Chairman Brown. It was begun under Chang Kai-shek or begun 
during martial law?
    Ms. Lewis. It was begun under martial law and then it was 
subsequently altered after martial law ended. So what happened 
was, in the waning years of martial law, you started to see 
judicial involvement in these decisions that were formerly 
totally in the hands of the police; that finally got momentum 
going to get rid of the law in its entirety.
    So what happened was that you had the constitutional court 
drawing attention to the law, drilling holes in the law. Then 
when Ma Ying-jeou came into office, the executive finally said, 
``Well, we recommend that this law should be gotten rid of 
entirely,'' and the legislature did so in 2009 in an unexpected 
step. We thought that first they would just reform the law but 
instead they decided to abolish it entirely.
    Chairman Brown. This was done under KMT rule?
    Ms. Lewis. This was done under the KMT. This was under 
President Ma. Exactly. Although there were reforms going on 
during the time of Chen Shui-Bian as well. But what had 
happened is that criminal justice reforms had progressed in 
Taiwan, and you increasingly saw the government in Taiwan 
realizing there was this untenable gap between the procedures 
applied to criminal cases and those applied to hooligan cases.
    Similarly, I think now that we've got the revised criminal 
procedure law in the PRC that just took effect in January, 
increasingly we're seeing there, too, this gap between the 
procedures that at least on paper are offered for people in the 
criminal system and those for people who are undergoing RTL. 
That gap is becoming more apparent.
    But with Taiwan's experience, how is it relevant? First of 
all, I think it underscores that just having a court involved 
in the determination is not enough to guarantee that the person 
facing an RTL determination has a fighting chance. We don't 
just need more process, we need meaningful process.
    I am certainly not expecting anything resembling the 
judicial independence we have in the United States to blossom 
overnight in China, but nonetheless even some modest judicial 
review can encourage the police and prosecutors to be more 
cautious in how they use their powers.
    In highlighting how Taiwan's path might be helpful in 
charting the mainland's future, I recognize that there are huge 
differences between Taiwan and mainland China at this point. 
Their histories, despite the cultural ties and long historical 
ties, have diverged greatly over the last 60 years. Most 
glaringly, of course, Taiwan is now a vibrant, multi-party 
democracy.
    Moreover, the PRC does not have a constitutional court akin 
to that in Taiwan, something I think which is a severe 
impediment to reforms. As Ira mentioned, it's very hard for 
people in the mainland to find a court where they can even air 
these grievances because of the limitations on how the 
Constitution can be used by citizens.
    But that said, even though there are differences, I do 
think that Taiwan's experience is relevant, first in looking at 
how, even during the martial law era in Taiwan, you started to 
see these sort of embryonic organizations being set up like the 
court to hear these liumang cases. Then, later on as other 
reforms progressed, those institutions were already in place 
and were able to take on a much more important role in the 
process.
    So maybe immediately you might not see these institutions 
making a huge difference, but they can put into place something 
that, when there is an opportunity years down the road, can 
really blossom.
    Moreover, in Taiwan's experience, one thing they did with 
liumang was separate them into two categories of hooligans. You 
had the less serious ones who were only subject to a probation-
like sanction, and then the more serious ones actually would be 
subject to incarceration.
    One of the ideas kicking around with RTL reforms is does it 
have to be full incarceration? Is there some way to have some 
kind of less severe sanction, maybe more akin to a probation-
like system that wouldn't involve at least the same direct 
restriction of liberty.
    In light of this background, what steps should U.S. 
policymakers take? I think really that's the goal here today. I 
agree with Ira that what we can do as the United States is 
limited. I mean, reform is only going to happen when the 
government in the PRC, and particularly the Ministry of Public 
Security, is willing to allow reforms to happen. But that said, 
the United States can still serve a coordinating role in 
introducing both our experience and Taiwan's experience to 
people on the mainland.
    Currently, the cross-strait relations are as good as they 
have ever been. It used to be unthinkable that you could have 
direct contact, particularly amongst government officials, 
across the strait. More and more you're seeing not just 
scholars going across the strait, but also people in government 
roles, and they are having conversations that are opening up 
this experience.
    I have also been a part of conversations that involve not 
just Taiwan and the mainland, but also Hong Kong, the United 
States, and other jurisdictions. I, too, think that our 
experience with our U.S. system--for example, how we have a 
probation system, how we use bail--can assuage some concerns 
that just because you let people out, you don't have them 
locked up, they're going to go and create chaos.
    So what this means is I really hope that the U.S. 
Government will continue to support scholarly exchanges. I 
think that's an important step just to get the information out 
there and to make sure that there are no misconceptions about 
how our systems are run. I also think that Taiwan is an 
untapped resource.
    There are wonderful Taiwanese legal scholars, judges, and 
prosecutors. There are several right now at NYU who have a 
wealth of experience and they speak the same language. There's 
some different terminology across the strait, but you can put 
people in the same room from Taiwan and the mainland and I 
think they can have a really helpful discussion. So, thank you.
    Chairman Brown. Ms. Li, I apologize. Larry will conduct the 
roundtable. But Ms. Li, your comments. Thank you.
    [The prepared statement of Ms. Lewis appears in the 
appendix.]

         STATEMENT OF LI XIAORONG, INDEPENDENT SCHOLAR

    Ms. Li. Thank you, Senator Brown. Thank you, CECC staff and 
Staff Director Lawrence for this opportunity. I also want to 
thank the two previous speakers for laying out the basics about 
laojiao, reeducation through labor [RTL]. It is sobering to be 
reminded of the Taiwan experiences. I think that will help us 
in thinking through this problem. I am very honored to be on 
the same panel with my friend Harry.
    I was asked to talk about some key cases, how these recent 
cases changed the public discourse on RTL. The push for 
abolishing RTL has gained momentum, as everybody has recognized 
in recent months. But I think largely the credit should go to 
the Chinese citizens for their tireless and long-time push for 
the abolishing of this system.
    Right now, everybody is holding their breath, hoping that 
this year, 2013, will mark a turning point in building the 
momentum for finally abolishing RTL. There are several high-
profile individual cases that I will discuss, which marked a 
turning point, because they raised so much public outrage. 
There has since been unprecedented public discussion about RTL 
problems, and also impressive efforts by Chinese citizens to 
organize and push for the ending of RTL.
    This, as we've heard, has prompted some officials to start 
speaking out and finally to echo the longstanding criticisms in 
civil society and among scholars about the system.
    Of course, we have not said exactly how many people are 
detained in RTL. The numbers actually are mind-boggling. But 
the problem is that it is really difficult to know exactly how 
many there are. However, in recent months, Chinese officials 
have provided some numbers.
    For example, according to official data, approximately 
170,000 individuals were held in 320 RTL camps. That was a 
number given as of February 2009 at the Universal Periodic 
Review of China's human rights record by the UN Human Rights 
Council.
    However, Chinese authorities reportedly stated in 2012 that 
more recently only 60,000 detainees were being held in RTL 
camps. The changing numbers, of course, could be a sign that, 
under domestic and international pressure, RTL detainees may 
have been transferred to other detention facilities, including 
some of the other administrative detention facilities that Ira 
mentioned that should also be brought into this conversation, 
for example, the notorious ``black jails.'' The ``black jails'' 
have completely no legal foundation and anybody can be locked 
in them. They are some sort of make-shift, rented space or 
government buildings.
    The few RTL cases I am asked to speak about particularly 
illustrate how arbitrary the decisions are and how much power 
police have to deprive the liberty of individuals without any 
judicial process. Also, another point I should emphasize is the 
use of RTL to persecute political dissidents, as well as 
practitioners of Falun Gong, and petitioners, who are ordinary 
people who seek justice by going to government officials to 
complain about grievances.
    One particular case that caused so much public outrage is 
the case of Tang Hui. Tang is the mother of a girl who was 
raped at the age of 11 and then forced into prostitution. Tang 
Hui wanted to have those who committed these criminal acts 
prosecuted.
    In order to make this happen, she repeatedly filed lawsuits 
and went through, since 2006, many processes. Some of the 
criminals were convicted, but eventually she suspected that 
some of the key criminals were not prosecuted so she staged 
sit-ins in courtrooms, in front of judicial official buildings. 
For that, she was sent to laojiao, RTL, for disrupting social 
order.
    After she was sent to RTL, her lawyers filed requests for 
administrative review. Her case got so much attention, even 
officially controlled media reported on this case. It went 
viral on the Internet and so many netizens posted comments. It 
was really a great opportunity to expose the problems with RTL.
    Another case many of you are probably aware of is the case 
of Ren Jianyu. Ren Jianyu was a college student who graduated 
from a university and went back to his village in rural China 
in Chongqing. Then he was elected director of the village. Like 
most young people, Ren, in his twenties and educated in 
college, lived part of his life on the Internet. He liked to 
post or repost comments by other people commenting on current 
events. Some of his comments had to do with official 
corruption. This was the time under Bo Xilai, then the CCP 
Party Secretary of Chongqing, so Ren was detained and sent to 
RTL for two years.
    Then, of course, we know that Bo Xilai went out of favor. 
Ren was released early. Both his arrest, detention in RTL, and 
his early release, nine months early, reflected the 
arbitrariness of RTL and also the use of RTL to suppress free 
expression.
    After much public discussion of Tang and Ren's cases and 
heavy coverage in the official press, participated by lawyers, 
scholars, and ordinary citizens, the pressure finally prompted 
the talk of change in official discourse.
    But then this is not the end of the story. There is the 
recent disclosure of Masanjia. Masanjia is an RTL camp 
especially used for incarcerating women. Women in Liaoning 
province and other places have been sent there to serve 
laojiao.
    Last month, appalling abuses of female detainees inside 
this Masanjia labor camp has triggered reports in the Chinese 
media and heated online discussions again, forcing officials to 
promise an investigation into the revelation.
    The source of the information is a diary secretly taken out 
of the camp by a petitioner released in February of this year. 
The diary detailed police arbitrarily detaining and torturing 
petitioners and Falun Gong practitioners at the camp and 
committing a wide range of horrific abuses in the camp.
    I should stress that RTL is not only an arbitrary detention 
system, it is also the place where torture and cruel treatment 
are rampantly committed. Interviews with the recently released 
detainees from Masanjia are documented in a documentary film 
called, ``The Women of Masanjia Labor Camp,'' made by the 
director Du Bin. Part of the film which was released on May 1 
is now available on YouTube.
    At the same time, another documentary film called ``The 
Juvenile Laborers Confined in Dabao Xiao Laojiao'' also came 
out on May 1 and provided overviews with people who were put in 
RTL when they were as young as 10 years old in the late 1950s. 
The movie is also available on YouTube.
    At this point, Lawrence kindly agreed we would show two or 
three minutes of ``The Women of Masanjia Labor Camp.''
    [Whereupon, an excerpt from a video was played.]
    Ms. Li. The upside down image on the screen is intentional 
because the laojiao camp was built on top of a tomb yard. The 
point was, I am told, that the women lived in hell, worse than 
the tombs where the ghosts lived. You can go search YouTube and 
continue watching, since I am running out of time here.
    I will jump directly to a few suggestions for U.S. 
lawmakers. I understand that what the United States can do is 
limited but this does not discourage us from asking what would 
be good to do. I think the U.S. Congress should strongly urge 
the Chinese Government to abolish RTL, to steer clear from 
replacing RTL camps with any other extra-legal detention 
facilities and to free all the detainees from RTL camps and 
allow them access to justice in holding their abusers 
accountable and seeking redress for damages.
    Such concerns should be raised by the Obama administration 
at its annual Human Rights Dialogue, Legal Expert Dialogue, and 
Economic Strategic Dialogue with China. Congress should 
consider imposing visa bans and asset freezes on Chinese 
officials involved in serious human rights abuses, including 
torture and arbitrary detention in RTL camps, similar to a 
recent act passed by Congress in December 2012 which places 
visa bans on and freezes assets of Russian officials who 
committed abuses of human rights.
    Finally, Congress should urge China to revive its rule of 
law reforms. There can be no meaningful end to RTL or any other 
forms of arbitrary detention in a country where there is little 
respect for the rule of law. Thank you.
    Mr. Liu. Thank you, Ms. Li.
    Now we will go to Harry Wu. Thanks.
    [The prepared statement of Ms. Li appears in the appendix.]

 STATEMENT OF HARRY WU, FOUNDER AND EXECUTIVE DIRECTOR, LAOGAI 
                      RESEARCH FOUNDATION

    Mr. Wu. I was literally shocked at a hearing on the 
reeducation through labor because everybody understands 
atrocity. They need repressive systems. Hitler's Germany needed 
concentration camp systems, the Soviets needed a gulag system. 
I want to remind you, gulag is not a word, it was made by 
Alexander Solzhenitsyn. After 21 years, Stalin died. Stalin 
died in 1953 and the gulag in 1974 finally became a word in the 
dictionary.
    In 1985, I was in America and I said, what about the 
laogai? You have to know the laogai is a very common word in 
China. If the people are 30, 40, or 50 years old, everybody 
understands what it is. The Chinese never use the words 
``imprisonment'' or ``in jail.'' No, they say laogai. So, where 
is your father? My father is in laogai. Where is my brother? My 
brother died in the laogai. Twenty-two percent of the 
population knew the word ``laogai.''
    In 1993, I was interviewed by a Washington Post 
correspondent who said, ``Harry, what do you want to do? '' I 
said, ``Well, I hope one thing. I hope laogai becomes a word in 
every dictionary, every language.'' The Chinese, right away, 
changed the laogai system. Stopped using the laogai. They have 
a Laogai Affairs Department. They have laogai detention 
everywhere and all these laogai camps stopped using the word 
``prison.'' There was only one reason.
    They said it was because we have to have a good position in 
the international society, human rights society, to fight. That 
is the reason to stop using the laogai. Now they want to change 
and stop using the laojiao. Did the government give any 
explanation for it? No, we just want to stop it. That's it.
    Laojiao is a very small part of the laogai system. Since 
1949, Soviet experts in China assisted the Chinese judiciary 
system and security system and set up the laogai camp systems. 
The laogai camps only started in 1955, 1956, from then until 
today. So-called laojiao camps are for those only charged with 
light crimes, like counterrevolutionaries.
    So for example, I was arrested in 1960. I don't have 
papers, don't have a verdict, no court. Even the police came to 
my classroom and said, ``Hey, you have to go with me.'' I said, 
``Where? '' He said, ``Just go to labor camps.'' So I follow 
him and I go to the labor camps.
    At midnight, the police in the camp says, ``Do you know 
about your sentence? '' I said, ``I do not know.'' He said, 
``What do you mean? You're sentenced to life.'' That simple. I 
was sentenced to life in reeducation through labor. Reeducation 
through labor, until 1961, no term, forever.
    Only in 1961 did they change the policies. Okay, everybody 
have a term. The longest one is three years, maybe two years, 
maybe one year, maybe one and a half years. So this is a new 
procedure really set up the reeducation camp until 1961, more 
than four and a half years.
    The government issued and publicized the laojiao policy in 
October 1957, but way before that in 1955, 1956, there was an 
abolition of the counterrevolutionary movement. In 1950 and 
1951, they had suppressed the counterrevolutionary movement and 
the Chinese probably executed more than 1 million prisoners. 
These people so-called were working for pulling down the 
government. But after a couple, five years, we have to abolish 
these counterrevolutionaries.
    So in 1956, after the movement, many people were selected 
and collected and then they were arrested. Some of them were 
sentenced, but there are 200,000 people--actually, the 
government cannot sentence these people in the camp, so they 
created a new law, reeducation through labor.
    Who are these people--of the--government or sweep the 
floor, a cleaner of the government, whatever. There's no crime 
at all, but the government doesn't trust you. You cannot have a 
legal job, whatever, in society. So 200,000 prisoners is the 
first group, the first wave of the reeducation through labor. 
At that time, the government had not issued the law yet.
    The second wave of so-called counterrevolutionary--should I 
stop? Okay, I'll stop. The second group is the so-called 
counterrevolutionary rightists, because 1.5 million people 
collected by the Communist Government became a rightist. I was 
20 years old. I was one of the counterrevolutionary rightists. 
I did nothing.
    I just said a few words about the Soviet Red Army 
suppressed the counterrevolutionary uprising in Budapest. That 
is my so-called crime. So when the police came to the class and 
pulled out the paper and said you were sent to reeducation 
through labor, sign it, I signed it. That's not a verdict. I 
don't know what it said. So this was since 1960.
    The third wave of the reeducation policy is peasants. In 
1959 to the 1960s, many peasants wanted to escape from their 
villages because of starvation. According to that policy, 
reeducation through labor, the government cannot arrest these 
peasants.
    The reeducation through labor camps only can set up in the 
cities, not in the countryside. But the government has 
additional papers and said, ``Okay, we have to handle the 
situation because too many peasants right now are running away 
from their villages and get into the camps and become 
beggars.'' I can tell you how crowded it was in the reeducation 
through labor camps. Twenty-four hours, divided three times, 
for a turn to sleep. I don't want to say what is the current 
situation.
    Some people talk about the torture. It's very different 
now. Before 1976, most of them died. Most of the torture in the 
prison camps were not really handled by the police but handled 
by inmates. For example, in 1965 they ordered all the prisoners 
to submit--okay. I'll stop. Thank you.
    [The prepared statement of Mr. Wu appears in the appendix.]
    Mr. Liu. Thanks. We just want to make sure we have enough 
time to get to all the questions.
    Once again, thank you to all the panelists for the great 
job and all of the expertise that you bring to the table in 
sharing both personal first-hand experiences as well as some 
great research. So, thank you very much.
    I know staff maybe have one or two questions, then the way 
our roundtables work is that we ask some questions and then you 
in the audience have an opportunity to also ask questions. We 
really want this to be interactive and sort of an opportunity 
for folks to ask questions and get some information from our 
great panelists.
    So I have one question that I wanted to ask first to all of 
the panelists. As, I think, Ira, you had talked about in terms 
of reform has been discussed for some time now. This year it 
looks like maybe there's an opportunity for some real change, 
but that is unclear.
    But I'm wondering whether or not there are economic 
interests at play here that may be working against reform or 
may be opposed to reform. I don't know if these RTL centers--
for example, are people profiting off of them? If so, is that 
going to be an obstacle to reform? So I ask all of the 
panelists that question. Thanks.
    Mr. Belkin. Lawrence, it's a great question. As I think a 
few people said, the system is not terribly transparent. It's 
very hard to know. Certainly I think Chinese Government 
officials say it's not used for profitmaking, it's used to 
educate people in work skills. But we just don't know the 
answer.
    I do think that reducing the population to 60,000, it seems 
like the government is taking steps to prepare for a big 
change. You would have to think a system that has not long ago 
housed 100,000 or 200,000 people, one of the issues is, what do 
you do with the people who are running the camps? So in what 
I've read I haven't seen a lot of discussion about the economic 
incentives. Unfortunately I don't have any more details to give 
you. I don't know if anyone else does.
    Ms. Li. One thing in that documentary film I was struck 
with yesterday when watching it, is that in the diary smuggled 
out of RTL and in the interview with the woman who did it, she 
talked extensively about the work they were forced to do in the 
camp. The women were made to work at least 10 hours a day. 
Initially they worked seven days a week and then they got one 
day off each week. She mentioned that they made garments 
exported to Italy and they made police uniforms and police 
gadgets, stuff for the local police stations. Anyway, quite a 
lot of the interviews on this film were about how long they 
worked each day and how harsh the working conditions were. They 
were given fixed numbers of tasks to finish in a day. If one 
couldn't finish them, one got beaten up or had to stay up 
working late into the night.
    I agree, it's hard to tell whether the economy really 
counts RTL labor or how important the RTL products were for the 
economy. But certainly this is something to look into to see 
what was produced in those labor camps and where they were 
exported, if there was any kind of economic profit to be made 
there or whether the campaign to abolish RTL should focus on 
the exports and whether some kind of boycott might help.
    Ms. Lewis.  I would just add that I agree: There's so much 
we don't know about what's happening. But the conversations I 
am having with people from the mainland are really about the 
convenient repressive aspect of RTL. I, too, don't hear much 
about economic considerations.
    For Taiwan, before they were abolished, I went to their 
``institutes,'' as they called them, where people would undergo 
reformatory training. There they would have various kinds of 
auto shop and other classes but it was more put in the guise 
that this was about reforming or reeducating. Though they did 
sell a few items, it seemed more to say, ``Look, we're 
reforming these people who are these hooligans'' than about 
whether the products that they were making were actually worth 
any major dollar amount of concern.
    Mr. Liu.  That is very helpful. I have one more question. 
China is coming before the UN Human Rights Council, I believe, 
later this year, the Universal Periodic Review. I am wondering 
if that is--and I may be asking folks to read the tea leaves a 
little--motivating Chinese officials to want to address this 
issue before they go before the Universal Periodic Review, or 
whether there may be other factors maybe because of the new 
leadership and wanting to start on a new foot that are driving 
the statements of officials right now.
    Ms. Li. Yes. October 22 this year is the date that China 
will be reviewed at the UN Human Rights Council in Geneva. The 
Universal Periodic Review on any country takes place once every 
four years. It is such a good opportunity to generate momentum 
for change, I agree.
    Also, next year China will likely come under review by the 
Committee Against Torture. It's been five years since the last 
review, and China is late to submit its state report, which 
means the committee cannot start the process. But perhaps next 
year. It will be another opportunity to generate international 
pressure.
    Of course, the Chinese Government is good at shifting 
attention. For example, I made a point about ``transferring'' 
RTL detainees to some facility called ``Illegal Behavior 
Correction Centers.'' So authorities could say RTL doesn't 
exist anymore, but it goes under a different name and the 
arbitrary detention system continues. So that's something to 
pay attention to.
    I'll give you another example; before the last Universal 
Periodic Review, China adopted the National Human Rights Action 
Plan, even though it was not really implemented. The government 
simply claimed that the plan was implemented. There was very 
little civil society participation at any point.
    But again, it's useful to have such a plan because the 
citizens can hold the government accountable for this action 
plan and present evidence to show that the plan was not met.
    Ms. Lewis. I agree that it's important to have 
international pressure and it shines a spotlight, but it's not 
going to be, alone, sufficient. One thing we see is in 1998 
China signed the International Covenant on Civil and Political 
Rights [ICCPR], but it is still not ratified. One of the 
sticking points is RTL. In the covenant it says that people 
charged with crimes be afforded a fair public hearing by a 
competent, independent, and impartial tribunal established by 
law. That is not happening for RTL.
    Although the PRC Government might say, ``This is 
administrative, it's not criminal,'' just the label that is put 
on a sanction by the government is not sufficient. So I think 
it is not just about the international community saying, 
``China, here are some ideals that you should live up to 
because we tell you that you should live up to them,'' but here 
the Chinese Government itself said it wants to ratify the 
ICCPR, and we are reminding the government that this is its own 
goal.
    Mr. Wu. Can I? I think the most important thing is maybe 
the CECC can hold a hearing on the laogai systems. Laojiao 
reeducation through labor is only a very small part of the 
laogai system. But the whole issue of the laogai system right 
now is under the sleeping, nobody really cares about it. I 
think this is a basic human rights issue. Thank you.
    Mr. Belkin. Again, a very good question. It's hard to know 
exactly what has motivated the leadership to act at this time. 
I agree with what Professor Li has said. The ICCPR has been 
something that's been part of the human rights conversation in 
China since China signed it, and every couple of years China's 
leaders renew their commitment to ratify the ICCPR. I think 
Premier Wen Jiabao, within the last couple of years, said China 
would ratify the ICCPR very soon.
    The Human Rights Plan is now--I mean, it would have been 
unthinkable 20 years ago for China to have a human rights 
action plan. So within the argument about reeducation through 
labor, Chinese scholars are using international human rights 
norms to support their arguments.
    So I don't know that it's one particular thing, the date 
coming up for human rights review, but I do think that 
international human rights instruments, human rights advocacy 
does matter. We have seen that in the previous administration.
    In the first year they took serious steps to reform other 
systems of arbitrary detention. It was very interesting and I 
don't think anyone predicted it, that when this new leadership 
took office very early, or maybe even right before they took 
office, they put this on their agenda. So I think it's probably 
the motivation is more domestic than international, but I do 
think that international human rights norms matter.
    Ms. Li. I mean, absolutely. I think even without ratifying 
the ICCPR, there are other international norms that China has 
already ratified, which also apply here. For example, the 
Convention Against Torture, China has not only signed, but 
ratified. Also, the Working Group on Arbitrary Detention. 
That's one of the special procedures. Countries don't need to 
sign or ratify any treaties for the special procedures to apply 
to them. As long as they are members of the United Nations, 
they are subjected to the SPs' scrutiny and review. So the 
Working Group on Arbitrary Detention had ruled that RTL was an 
arbitrary detention system, and also the Committee Against 
Torture, in its last review on China in 2008, in its 
``concluding observations'' suggested to China to reform RTL.
    Both of these UN interventions created a certain pressure 
on China. These are advocacy tools not only for Chinese 
citizens, but for the U.S. Congress and all other concerned 
stakeholders to use to get China further involved in the 
process and to generate pressure. Thank you.
    Mr. Liu.  Great. Thanks a lot.
    I want to introduce at this time to my right the Deputy 
Staff Director, Paul Protic, who represents our Cochairman, 
Chris Smith. I think he has a question.
    Mr. Protic.  Thank you, Mr. Liu.
    I want to first say thank you very much to the panelists 
for coming and for your insightful remarks. I have a followup 
question to Mr. Wu. Are you aware of any prison labor cases 
where goods that are being made in the laogai ended up in U.S. 
markets--that U.S. companies are importing in America? Can you 
address that?
    Mr. Wu. Yes, many of them right here. It goes through the 
reeducation through labor right now in America.
    Mr. Protic.  What can the government do about that? Any 
suggestions on what the government, our government, can do to 
keep that from happening?
    Mr. Wu. Right now they live in America. They can testify, 
no problem. I just really hope that Americans are aware that 
China is an atrocious country, they have a suppression machine, 
the so-called laogai. It's not only about reeducation through 
labor. But even the Chinese Government cares about reeducation 
through labor. What is the reason they want to stop it?
    They did not tell the truth, how come they set up the 
reeducation camps, from when? Reeducation camps in 1970 
entirely stopped and Deng Xiaoping reopened it, restarted it 
because we had so many people who wanted to argue about the 
issue that we cannot handle that. This is light crime, light 
criminal. But the laogai system included Liu Xiaobo, the Nobel 
Peace Prize winner, who was there. This is a big suppression 
machine.
    We shouldn't only care about the gulag and concentration 
camps. It's a very good topic. But it's over. The Chinese 
laogai camps are still running, they're still putting people in 
there. I really hope the CECC can run with this issue. It's a 
part of the politics issue in China. I don't expect that the 
United Nations can do anything about it.
    What is the United Nations? Did they condemn Chinese 
publishing control? Did the United Nations condemn execution 
for organ transplants in China? Did the United Nations care 
about religious freedom in China? Do they care about censorship 
of the Internet? No, they don't. They only care about these 
small countries called Iraq, Afghanistan, whatever. But so many 
violations of human rights happen in China, but I'm sorry, they 
ignore it. That's just my feeling, my personal feeling. Thank 
you.
    Mr. Liu. Thank you, Mr. Wu.
    I'd like to introduce one of our staff members, Jesse 
Heatley. He's going to ask a question. But I also wanted to 
point out that Jesse authored a special report on the 
reeducation through labor system and the prospects for reform, 
and we have copies of that report. Our staff helped him out 
also. It's meticulously sourced. We hope you'll take a copy 
with you. It's a great resource. I'll turn it over to him to 
ask his question.
    Mr. Heatley.  Thanks so much, Lawrence. Thank you to the 
panelists today for sharing their insights on RTL reform.
    I have a quick question. Lawrence had mentioned that there 
has been talk of RTL reform for a number of years. Over the 
last 30 years there has been multiple rounds of policy debate. 
One thing that appears to have changed, though, is the 
emergence of social media tools and micro-blogging over the 
last few years and how that's affected this discussion. I was 
wondering if the panelists can discuss the role of social media 
tools in reform, and perhaps the role of social media and 
online advocacy for future reforms.
    Just as a note, after the Tang Hui case that was mentioned 
earlier, there was something around, according to the China 
Daily, 700,000 posts about the Tang Hui case. After the Ren 
Jianyu case, there were over a million posts about that case 
just in the days following.
    After the Masanjia case, there was a swell of support in 
postings on the People's Daily site and some other sites and 
they were quickly taken down. The government has done a 
tremendous job to try to control this discussion, but the 
public outrage that we've seen and the response has been great 
as well. So I would appreciate it if the panelists could 
discuss the role of the Internet and social media tools in 
driving this type of reform, and, perhaps, similar reforms. 
Thanks so much.
    Mr. Belkin. The phenomenon of social media and the role of 
public opinion is a complicated subject. I think that the 
growth of social media in China has coincided with government 
policy to take public opinion into account much more greatly in 
many different areas, sometimes in the advocacy of reforms but 
sometimes in advocating for particular results in individual 
cases.
    Sometimes there have been cases where the public opinion 
has advocated for the death penalty in individual cases where 
the death penalty might not have been imposed but for strong 
public opinion. So sometimes it's easy to see social media as 
always a positive and public opinion as always a positive, but 
I think the picture is more complex. That's the first point.
    The second point, it is always a puzzle as to why certain 
cases receive public attention. The two cases that were so well 
described by Professor Li, Tang Hui and Ren Jianyu, why did 
these two cases get attention and why did they get attention 
now? Is it spontaneous? Certainly the response, the 
overwhelming response, is spontaneous. But were people who were 
thinking about reeducation through labor reform using public 
opinion to support their position? We don't really know.
    I would say in 2003 when the Sun Zhigang case happened, 
which was an individual case that was a great engine for reform 
of the custody and repatriation system, around the same time 
there was a case of someone in a reeducation through labor camp 
who also died in custody, was reported in a local paper, but 
information about that case never made it to the mass media.
    So I think social media, although complex, is an overall 
positive thing for people to have the chance to express 
opinion. I think the fact is that the Chinese Government very 
much cares about public opinion.
    I'll just cite another positive example. During the lead-up 
to the Criminal Procedure Law reform in 2012, the government 
published the draft online, solicited public comments. We were 
told there were 80,000 public comments, although the comments 
themselves were never made public.
    But one of the more controversial provisions, Article 73, 
that allowed for six months of detention at an undisclosed 
location, there were public comments. As a result, the final 
draft was modified to at least require family notice when 
someone was placed in that kind of detention.
    So it's something we are watching closely and trying to 
understand, but I think we should try to resist the temptation 
to say that it's all positive. It would be a very positive 
thing if things were more open and if, when sensitive cases 
were raised, there wasn't censorship so that the leadership 
could actually hear public opinion on all these issues.
    We recently read in the press that people who are 
advocating that leaders disclose their financial assets have 
been either put under house arrest or charged right in the 
midst of an anti-corruption campaign. So it's a very 
complicated question.
    Ms. Lewis. I agree. It's not an unqualified ``good'' to 
have Internet use, but overall I think it's a great thing. 
Certainly with criminal justice reforms more generally we've 
seen a very positive role for public opinion in some ways.
    For example, there was an infamous case, Zhao Zuohai, where 
a man was convicted of murdering a fellow villager after a 
fight: The police had found a headless body. He confessed and 
he was put in prison, and thankfully not executed. The death 
sentence was reprieved.
    Ten years later, suddenly, the alleged victim comes back, 
head intact and everything and he was not dead. People said, 
``Well, why did you confess? '' Well, because it was beaten out 
of him. It was a coerced confession. That case drew a lot of 
attention. We see subsequent reforms in the new Criminal 
Procedure Law. There are other cases like that where individual 
cases have generated attention in a positive way.
    On the flip side you do have this court of public opinion 
that can occur in a very negative way. There's a lot of false 
information out there in these sort of human flesh search 
engines where the Internet will say, ``Oh, this is a bad 
person.''
    To the extent that people involved in legal reforms in 
China are trying to emphasize a process that is fair and just, 
and based on evidence--that isn't just rumor--in some ways the 
Internet can cut against that goal and make it so there's a lot 
of rumors flying around and people who haven't had a chance to 
be judged by a court using lawful procedures are finding their 
lives adversely impacted.
    Mr. Belkin. If I could just follow up for just a second. I 
think that this situation actually creates an opening for the 
U.S. Government. My own view is that part of the reason that 
the Chinese Government is allowing public opinion to express 
itself in the area of legal cases and legal reform is they want 
more public support and public legitimacy.
    But allowing public opinion to influence individual case 
decisions is very problematic. I think we actually have a lot 
of good experience that we can share. We have our own problems 
and we certainly need to acknowledge them, but in terms of the 
legitimacy of our judicial system and public confidence in the 
system, I think this is where the rule of law can work to 
enhance social stability. So I do think this does create an 
opportunity for the U.S. Government and for more exchange with 
China.
    Ms. Li. I agree with what has been said about the mixed 
benefit in this cost-and-benefit analysis about social media. I 
want to add that in a country where media and the press and 
information on the Internet are tightly controlled by the 
government and the cyberspace closely policed by authorities, 
social media certainly is a good thing to level the playing 
field and give every citizen basically a media to air their 
views. So in that sense I think the net benefit of social media 
comes out ahead of its limitations and problems.
    I also want to add that, particularly in the RTL case, we 
can see social media has certainly played a positive role. But 
in all other fields of civil society, people are getting 
organized to protect their own rights and social media has been 
such a valuable and useful tool for them.
    I have many stories I could share with you. When, for 
example, a demolition team came to bulldoze a house illegally, 
activists used social media to gather citizens to protect the 
house, to alert media, and to report the incident to police. 
There have been some success stories. In one case, the 
activists managed to get the police to arrest the demolition 
members for trespassing.
    Social media has also offered a good venue for citizens to 
exercise their right to free association, which is not possible 
in China and is so tightly controlled. So people get together 
on the Internet using social media to form groups, to organize 
actions, and to try to generate synergy in order to be more 
effective. I am an enthusiast for social media.
    Mr. Liu. Okay. We have, now, about 15 minutes. I wanted to 
open it up to questions from the audience. In the interest of 
time, please only ask one question and try to be brief. There 
are two microphones, one over here and one to my right, to your 
left. If you would just raise your hand, we'll bring the mike 
to you. Also, please note that this event is being webcast and 
transcribed, so if you have a question, please raise your hand.
    Tom, go ahead.
    Mr. Lum.  Hi. I'm Tom Lum with the Congressional Research 
Service. In the past there used to be two systems, reform 
through labor and reeducation through labor. I think one is 
laojiao, one is laodung. I was just wondering what happened to 
the other system? Are there two systems and what happened to 
the other one? Thank you.
    Mr. Wu.  Well, China only has one system, the one system 
so-called reform through labor. Reeducation through labor is a 
part of the reform through labor and only handles these light 
criminals.
    Mr. Belkin. I think if we're focusing on the language 
that's used in Chinese law, laogai tends to be used to describe 
a punishment under the criminal justice system, where as 
laojiao, laodung jiao yong, reeducation through labor, is an 
administrative punishment.
    So I understand what Mr. Wu is saying in terms of a whole 
system, but in terms of the way the language is used, they're 
actually used to describe different aspects of the overall 
administrative and criminal justice system.
    Mr. Liu.  Does that answer your question, Tom?
    Mr. Lum. I think so.
    Mr. Liu.  Okay.
    Mr. Lum. I had the impression that reeducation was a wider 
form and there was some other--much harsher. But you're also 
saying that would be taken care of by the criminal justice 
system. Thank you.
    Mr. Liu. Yes. Okay. Who else has a question? Okay. Over 
here.
    Angela.  My name is Angela. I'm a pharmacist and also a 
Falun Gong practitioner. I just wanted to let you know there 
are two Falun Gong practitioners that are the victims in the 
forced labor camp. One is Emily Ma. She was a survivor, and 
thank goodness she is here. She served more than four years in 
China's forced labor camp. And Yu Zhengjie, she's also a 
survivor, too. I think Masanjia, those words to us are only 
words, but I think for those two who have served in the forced 
labor camp, no words can describe and their lives were changed.
    Also, I want to share with you that 18 Falun Gong 
practitioners, females, their clothing was ripped off and they 
were dumped into the male prisoner's camp and they were raped, 
raped, raped. One even carried a baby from the rapist. So 
together we hope we can do something to stop it.
    Mr. Liu.  Thank you.
    Any other questions?
    Ms. Brettell. Yes. My name is Anna Brettell and I work for 
the Congressional-Executive Commission on China. I was curious 
if there are public discussions about how to reform the system 
or what the system might look like if reforms do occur.
    Ms. Li. It's interesting. In fact, in Yunnan province, 
where, just last month, one official said that Yunnan had 
practically ended RTL and from this year on they would no 
longer send people to RTL, but then he talked about what would 
happen to the people normally detained in RTL. He gave a few 
possibilities. He said the prostitutes will be sent to some 
kind of women's correction centers but will be processed by the 
judicial system, and then the drug users will be sent to drug 
rehabilitation centers. This has been a long debate among not 
only Chinese legal scholars, but legal scholars in the United 
States. Some scholars have asked the rhetorical question, what 
would you do with the detainees if you abolish RTL? Would you 
rather put them in jails or go free? But the thinking behind 
that rhetorical question begs the question: The RTL detainees 
were never tried in court. One cannot assume they were 
criminals. Other scholars have argued that for anybody who had 
not been tried, they should never have been put in RTL so they 
should be freed. If authorities suspect that anybody committed 
any crime, then they should go through the normal judicial 
criminal procedure to convict the person. But of course, there 
is another concern about the problems with the criminal system 
itself.
    Anyway, this Yunnan official gave some ideas about what to 
do. But the fundamental issue is whether people who were 
detained in RTLs without ever going through any kind of 
judicial system should be freed.
    Ms. Lewis. I agree in principle that people that have been 
subject to RTL should be freed because they were not put in 
with judicial process, but I think in reality the chances of 
that happening are extremely, extremely small.
    More likely what would happen would be a phase-out. 
Whereas, we're seeing that less people will be put in, and over 
the course of several years the numbers would decrease. 
Certainly in Taiwan, that's what happened with their system for 
liumang, where gradually those cases started being channeled 
through the formal criminal justice system instead of through 
this separate track.
    By the time that the law was actually abolished there 
weren't that many people that were locked up as hooligans, so 
there wasn't the same sort of panic that there was going to be 
a deterioration in social order. But we are going to have to 
see, I think, a several-year process, at a minimum.
    Mr. Belkin. There is wide-ranging debate in China among 
scholars about whether or not the system should just be 
abolished. Some people say that with the Criminal Law and the 
Public Safety Administrative Punishments Law, which has a 
maximum sentence of 15 days, any criminal offense could be 
covered, any violation of law could be covered. There is no 
need to have a separate system that does not have a judicial 
process, that does not have very clear standards. So that is 
one point of view that is being expressed strongly.
    Others say, ``Well, we can modify the system. We have to 
change the name because it has such a bad reputation. We should 
have some review and we should maybe limit the time period.'' 
But I want to reiterate the point that although reeducation 
through labor has a terrible reputation, it's more well-known 
than many other forms of detention.
    When we talk about these issues, whether it's the U.S. 
Government or other people who focus on it, I think we have to 
look at the whole system. What we saw in 2003 when shourong 
qiansong, custody and repatriation, was abolished, it appears 
that the number of people detained in ``black jails'' 
increased.
    So for police who are used to having the discretion to 
punish people this way, it would be almost expected that if 
they have other ways of detaining people, that they would use 
those as well. So I think it's great that the Commission is 
focusing on reeducation through labor, but I would say we have 
to widen the scope of focus. The same principles would apply.
    As Maggie said, there should be a judicial process. There 
might be some social problems, drug addiction or prostitution, 
that could be dealt with in other ways, but they shouldn't 
involve detention. If they involve detention, then under 
Chinese law there should be some judicial process.
    Mr. Liu. Thanks. We'll take one more question.
    Susan?
    Ms. Weld. [Inaudible.]--because after these cases are 
unwound and undone there might be a lot of cases for 
compensation, not huge compensation, but some kind of symbolic 
compensation as happened after the Cultural Revolution. So 
there is a precedent for that.
    I think some of the feeling of injustice, the government is 
almost as equally afraid of a large group of uncontrolled 
people feeling everything unjust has happened to them. If you 
could give them a feeling they have gotten some bit of justice, 
maybe the government would be less afraid of this unwinding 
process. What do you think?
    Mr. Liu. Does anyone want to comment on that?
    Ms. Lewis. There is more recent precedent than the Cultural 
Revolution. In fact, after the Zhao Zuohai case, the case I 
mentioned with the wrongful conviction, he was given monetary 
compensation and that got a lot of press. There are news 
reports about that.
    I think it's important to recognize what terrible things 
have happened to people and to give monetary compensation, but 
at the same time recognize that sometimes that can act as an 
impediment to reforms because you do not want government 
officials to say, ``Oh, because we have to pay money we can't 
admit that we were wrong.'' The goal is to try to figure out 
how to allow for some sort of compensation while still not 
making that end up being more of a hurdle than it is meant to 
be.
    Ms. Weld. [Inaudible.]
    Ms. Lewis. And there are a lot of other countries who have 
had especially experiences with truth and reconciliation 
commissions or other forms of restorative justice focused on 
not just money but also on how to go about the healing process 
and moving forward. There are international models that could 
be very helpful.
    Ms. Li. I think some channels are available in China today 
for RTL victims to seek compensation, which is not necessarily 
monetary, and it could be a piece of paper, issued by 
authorities, saying it was wrong to put a person in RTL. Tang 
Hui is currently seeking compensation for the RTL decision and 
quite a few former RTL detainees are doing what she is doing.
    There are two such channels. One is called xingzheng fuyi, 
or administrative review of the decision to send a person to 
RTL. Whether the person is still in RTL or released, she or he 
can use this procedure to seek redress. The other one is suing 
the police officers or government authorities who made the 
laojiao decision. This kind of lawsuit goes through the 
criminal system actually. Such lawsuits are often blocked by 
the court.
    Mr. Liu. Okay. Thanks for the great question.
    I wanted to give our panelists a final opportunity to make 
any closing remarks, if you have any.
    [No response].
    Mr. Liu. You're good? Okay.
    Thank you once again for your excellent input in helping us 
in the United States and in our government and in Congress 
understand this issue more.
    I wanted to note for the record that Congressman Smith, our 
Cochairman, has a statement that will be entered into the 
record.
    I thank all of you for attending.
    This roundtable is adjourned.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    [Whereupon, at 12:35 p.m. the roundtable was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of Ira Belkin

                              may 9, 2013
    Mr. Chairman and distinguished Members of the Commission, thank you 
for the invitation to participate in this Roundtable. I would like to 
acknowledge the importance of the Commission's efforts to enhance 
American understanding of China and the contributions the Commission 
has made to the improvement of the Rule of Law and human rights 
situation in China.
    The opinions I express here today are my own but I am also proud to 
represent the U.S.-Asia Law Institute at New York University School of 
Law. Our Institute was founded by Professor Jerome A. Cohen who has 
been a strong, consistent voice for human rights and the Rule of Law 
and an untiring advocate of engagement with China. Our mission is to 
promote the Rule of Law in Asia and to promote mutual understanding 
between the United States and Asian countries, especially China, on 
legal issues. We do that through constructive engagement, research and 
exchanges with legal experts. Our goal is to be educated observers of 
Asian legal systems and, when appropriate, honest, fair and well-
informed critics as well. It is in that spirit that I provide these 
remarks.
    With respect to our topic today, ``The End of Reeducation Through 
Labor? Recent Developments and Prospects for Reform,'' I am going to 
focus my remarks on the topics I have been asked to cover: to provide 
an overview of the Reeducation Through Labor System (``RTL''), 
including its history, the purpose behind RTL, how it is currently 
used, and a summary of the current debate over RTL reform, as well as 
recommendations for U.S. policymakers.
    The institution of RTL has been around for 60 years. Its precise 
use has shifted over time but it seems to be chiefly valued by the 
government because its flexibility allows police to incarcerate 
individuals and members of groups they consider troublesome without 
having to go through formal judicial processes. It is currently used 
mainly to detain drug addicts and members of the banned Falun Gong 
sect, but it is also used to detain political dissidents. The new 
leadership has recently said it is reexamining RTL with an eye to 
reforming it. This is a very welcome development.
                an overview of reeducation through labor
    At the outset, allow me to emphasize the importance of today's 
discussion. The issue of RTL reform is important because what happens 
in China is important. It is important to China's 1.3 billion citizens, 
one fifth of the world's population, and it is important to the world 
because of China's growing influence in the world.
    RTL allows the police, on their own, to confine someone for one to 
three years, with the possible addition of a fourth year, for any 
conduct that falls within one of six vaguely defined categories of 
conduct. According to Article 10 of the ``Trial Methods for Reeducation 
Through Labor,'' issued by the Ministry of Public Security (``MPS'') 
and approved by the State Council on January 21, 1982, the following 
persons may be sent to RTL:

          1. Those counterrevolutionaries and elements who oppose the 
        Chinese Communist Party or Socialism, where their offenses are 
        minor, but do not merit criminal punishment;
          2. Those who are members of gangs who commit crimes of 
        murder, robbery, rape and arson, but whose acts do not merit 
        criminal punishment;
          3. Those who repeatedly commit minor offenses such as 
        hooliganism, prostitution, theft, or fraud and who do not mend 
        their ways despite repeated admonition but whose acts do not 
        merit criminal punishment;
          4. Those who gather to fight, cause trouble, disturb social 
        order, and instigate turmoil but whose acts do not merit 
        criminal punishment;
          5. Those who have a job but repeatedly refuse to work, 
        disrupt labor discipline, complain endlessly, disrupt 
        production order, work order, school and research institute 
        order and the people's normal life, but whose acts do not merit 
        criminal punishment;
          6. Those who instigate others to commit crimes, but whose 
        acts do not merit criminal punishment.

    A mere reading of these categories shows how vague and open to 
abuse they can be. One could question the legitimacy of this type of 
system during any era, but these ``trial'' RTL regulations from 1982 
read like pages of history. RTL would seem to have no place in modern 
Chinese society in the year 2013.
    Perhaps in recognition of how dated the original rules read, in 
2002, the MPS issued new regulations, changing the reference to 
``counterrevolutionaries and elements who oppose the Chinese Communist 
Party or Socialism'' to those who commit acts of ``endangering state 
security.'' The 2002 regulations also modified the definition of the 
other categories and expanded the list from six to ten categories but 
did not cure their vagueness.\1\
---------------------------------------------------------------------------
    \1\ The definition of these categories was modified in Article 9 of 
the 2002 regulations issued by the Ministry of Public Security as 
follows:

    Persons aged 16 years or older who committed one of the following 
acts shall be sent to RTL in accordance with the law:
      1. Acts of endangering state security that are clearly minor in 
nature, wherein criminal punishment is not yet warranted;
      2. Membership in a criminal gang formed to murder, rob, rape, 
commit arson, kidnap, set explosions, or traffic women and children, 
wherein criminal punishment is not yet warranted;
      3. Subsequent commission of one the [following] illegal criminal 
acts, wherein criminal punishment is not yet warranted, either within 
five years of completing a criminal penalty, sentenced in accordance 
with the law, [for the one of following acts] or subsequent commission 
of one the [following acts] within three years of being lawfully fined 
by police or completing administrative detention, custody and 
education, or RTL issued by police: compulsory indecency; humiliating 
women; indecency with children; group promiscuity; luring juveniles to 
engage in group promiscuity; illegal detention; theft; fraud; forgery 
or resale of invoices; resale of train or boat tickets; forgery of 
price tags; sale of forged price tags; forcible seizure; group robbery; 
extortion; swindling; forgery; alteration; trafficking in official 
documents, credentials, or chops; or the harboring, transfer, purchase, 
or sale of stolen property;
      4. Endangering public safety by creating an atmosphere of terror 
or causing the public to panic; organizing or using a secret society or 
cult or use of superstition to undermine implementation of national 
laws; mass brawling; creating a serious disturbance; instigating 
turmoil; forcing purchases or sales to dominate the market; or 
disrupting social order through deeply engrained bad habits such as 
bullying, engaging in mischief, or oppressing the masses, wherein 
criminal punishment criminal punishment is not yet warranted;
      5. Deliberate provocations that disrupt the order of production, 
work, education or research, or daily life, as well as rejection or 
obstruction of state employees' [efforts] to carry out their duties in 
accordance with the law but without the use of violence or threats;
      6. Instructing others to commit crimes, wherein criminal 
punishment is not yet warranted;
      7. Introducing or allowing others to engage in prostitution or 
solicit prostitutes; enticing others to engage in prostitution; 
gambling or providing conditions for gambling; or producing, 
reproducing, selling, renting, or disseminating pornography, in which 
the acts are of a rather serious nature but do not yet warrant criminal 
punishment;
      8. Engaging in prostitution or soliciting prostitutes after being 
lawfully warned, fined, or given administrative detention by the public 
security authority for engaging in prostitution or soliciting 
prostitutes;
      9. Taking or injecting drugs after having been sent to compulsory 
drug treatment for addiction to taking or injecting drugs;
      10. Other circumstances for which there is statutory basis for 
RTL.
    Individuals who have committed offenses of endangering state 
security, endangering public safety, infringement of civil rights, 
infringement of property, or obstruction of social order management but 
whom, because the offense was minor in nature, a people's procuratorate 
has opted not to prosecute or a people's court has exempted from 
criminal punishment may be sent to RTL, in accordance with the law, 
where they meet the conditions for RTL. I am grateful to the Duihua 
Foundation for providing links to these 2002 regulations and the 2005 
opinion on their website, as well as English language translations. The 
link to those materials at the Duihua website is: http://
www.duihuaresearch.org/2013/01/police-updated-rtl-rules-in-2005-
but.html.
---------------------------------------------------------------------------
    Moreover, in terms of process, RTL is still administered solely by 
the MPS. A decision to incarcerate someone under RTL is made by the MPS 
without any judicial review.\2\
---------------------------------------------------------------------------
    \2\ A person subject to RTL may challenge the RTL decision in court 
after the fact through the Administrative Litigation Law. Such review 
may not take place until the individual has served a substantial 
portion of their RTL sentence.
---------------------------------------------------------------------------
    China has committed itself to establishing a society under the Rule 
of Law. To the extent China maintains the authority to detain 
individuals outside the formal legal system and under such a vague set 
of standards, with very little in the way of due process, such a system 
undermines China's own goal of establishing a society under the Rule of 
Law.
                         a brief history of rtl
    The history of the RTL system also suggests that it is long overdue 
for reform. The RTL system was initially created in the 1950's during 
the early years of Chairman Mao's rule and it was used to suppress 
``counterrevolutionaries'' and others who the Party determined did not 
support the new socialist regime in China. As such, the maximum level 
of flexibility, or one could say, arbitrariness, served that type of 
system well.
    Fast forward to 1979, the end of the Cultural Revolution and the 
beginning of Deng Xiaoping's policy of Reform and Opening Up. In 1979, 
China opted to develop a formal legal system with predetermined rules 
and procedures that would limit arbitrariness. Thus, in 1979, China 
promulgated a new Criminal Law and a new Criminal Procedure Law. 
However, at that time, China maintained the RTL system as well. The 
Criminal Law and Criminal Procedure Law have been amended repeatedly, 
each time introducing new procedural protections for individuals.
    Over the years, there have been many efforts by legal reformers to 
abolish or substantially reform RTL. To date, those efforts have not 
succeeded. However, the role RTL has played during this period of time 
has shifted away from suppressing ``counterrevolutionaries'' to, 
according to its supporters, ``maintaining social stability.''
    As noted above, in 2002, the Ministry of Public Security issued new 
``Regulations on the Handling of Reeducation Through Labor Cases by 
Public Security Organs.'' The MPS has the authority to issue 
departmental regulations and guidance about how to implement national 
rules and regulations provided they do not contradict those laws and 
regulations. Of course, MPS regulations can be changed by the MPS at 
any time and do not have the same status as State Council regulations 
or National People's Congress legislation. In the 2002 MPS regulations, 
the MPS provided more details concerning how RTL should be 
administered. The rules provided for RTL hearings in some cases, but 
excluded from the hearing requirement any cases involving drug addicts 
and `those involved in organizing or using a cult to undermine the 
implementation of national laws,'' an apparent reference to followers 
of Falun Gong. The MPS also provided for non-custodial RTL in some 
cases.
    In 2005, China's National People's Congress promulgated a Public 
Safety Administrative Punishments Law, which provides for a maximum 
punishment of fifteen days in jail for minor offenses. This seemed to 
presage the abolition of RTL because RTL's supporters had claimed it 
was a more lenient alternative for minor offenses. With the Public 
Safety Administrative Punishments Law providing for a maximum 
punishment of fifteen days detention for minor offenses, RTL's maximum 
sentence of four years seemed even more out of step with the rest of 
Chinese law.
    However, in the same year, 2005, the MPS issued an ``Implementation 
Opinion Regarding Further Strengthening and Improvement of Reeducation 
Through Labor Review and Approval Work.'' The 2005 Opinion provided for 
police hearings for all those subject to RTL, removing the exclusion 
for drug addicts and cult members, expressly limited the maximum RTL 
sentence to two years and provided that legal counsel could participate 
in RTL proceedings.
    Has Reeducation Through Labor served the purpose of maintaining 
social stability? The system is not very transparent but it appears 
that RTL is primarily used for involuntary drug rehabilitation for drug 
addicts, for compulsory reform for those engaged in prostitution, and 
to confine followers of Falun Gong as well as some political 
dissidents.
    The point is that the standards for RTL are so vague and ambiguous 
and the decision-making process so lacking in due process and 
transparency that it seems that RTL could be used, or in the view of 
some, abused, to incarcerate a whole host of people the police simply 
find to be annoying or obnoxious. A system such as this can also be 
used and appears to have been used to stifle the freedom of expression 
and dissent.
    In addition, to the extent that China has made important strides in 
improving the rights protections in its formal criminal justice system, 
the existence of an alternative, much more flexible and arbitrary 
police-friendly system like RTL, undermines those reforms. The police 
can completely avoid the criminal justice system and its small but 
growing protections for individuals' rights simply by sending someone 
to RTL.
                chinese legal scholars debate rtl reform
    Since even before the 18th Party Congress, rumors began to 
circulate that China's new leaders might take up RTL reform as one of 
their first tasks after assuming power. In January, we learned that Mr. 
Meng Jianzhu, Chair of the powerful Political-Legal Committee of the 
Communist Party had directed that the use of RTL be terminated this 
year. On March 17, 2013, after the annual meeting of the National 
People's Congress, Premier Li Keqiang told a press conference that with 
respect to RTL reform, ``the relevant departments are working 
intensively to formulate a plan, and it may be laid out before the end 
of this year.''
    The leadership's public support for RTL reform has reopened the 
public debate about RTL and Chinese experts are publicly debating 
whether it should be abolished and whether something should be enacted 
to replace it. One of the bright spots of the debate is the use of 
legal norms, as expressed in domestic Chinese law and the Chinese 
Constitution, as well as international human rights norms and concepts 
of the Rule of Law to support various arguments. Under all of these 
norms, RTL falls short. Chinese scholars are debating whether providing 
judicial review, substantially shortening the maximum period of 
incarceration and changing the name can save the system.
    For example, Professor Liu Renwen of the Chinese Academy of Social 
Sciences advocates for the abolition of RTL and argues that all 
punishments that involve the loss of liberty should be handled under 
the criminal justice system and be subject to judicial review. He 
argues forcefully that RTL is inconsistent with Article 9 of the 
Legislation Law, passed in 2000, because the Legislation Law requires 
that all laws restricting the liberty of citizens be enacted as 
legislation by the full National People's Congress. He further argues 
that RTL is inconsistent with the Chinese Constitution, apparently 
referring to Article 37, which provides that ``no citizen may be 
arrested except with the approval or by decision of a people's 
procuratorate or by decision of a people's court'' and ``unlawful 
detention or deprivation or restriction of citizens' freedom of the 
person by other means is prohibited.'' He further argues that many 
punishments permitted by the Criminal Law are less severe than RTL and 
therefore it does not make sense to have an administrative system of 
punishment that can provide for more severe punishments than the 
Criminal Law itself.
    On the other hand, Professor Chu Huizhi of Beijing University 
argues that there is still a social need to deal with habitual 
offenders and he suggests that a new law titled: ``Unlawful Behavior 
Corrections Law'' be enacted to provide for up to two years confinement 
for habitual drug addicts, those engaged in prostitution as well as 
juveniles who are not subject to criminal prosecution. Professor Chu 
also proposes that the process be modified to make it a judicial or 
quasi-judicial process to ensure some neutrality in the decision-making 
process. There are many other opinions that fall somewhere between 
complete abolition, as advocated by Professor Liu, and the type of 
reform suggested by Professor Chu.
    There does appear to be consensus among Chinese legal scholars that 
the legal basis for RTL is questionable, the lack of judicial review is 
problematic, and that RTL's vagueness and lack of due process does not 
comport with China's own commitment to governance according to law.
    However, while legal scholars will no doubt have input into the 
decision about what to do with RTL, the final decision will be made by 
political leaders. China's new leaders deserve credit for publicly 
committing to reforming RTL at a very early stage in their 
administration. They did not have to put this pressure on themselves. 
There are also hopeful signs that the reform may be meaningful. There 
have been reports of local governments issuing rules to stop the use of 
RTL this year and we have also heard reports that the number of people 
in RTL has been reduced dramatically. It may also be that some of those 
held in RTL, specifically juveniles, drug addicts and those involved in 
prostitution, may have been sent to other forms of administrative 
confinement. At this point, it would be mere speculation to predict 
what the final outcome will be.
                 recommendations for u.s. policymakers
    This brings us to the question of what U.S. policy makers should 
do. First, let me congratulate the Commission on bringing attention to 
this issue. Bringing these issues out in the open and discussing them 
is always helpful. Second, while there are limits to what anyone 
outside of the Chinese system can do to affect the final outcome I do 
believe there are many positive steps that the U.S. government can 
take.
    Before I go into those, however, I want to suggest that the U.S. 
government expand the scope of its interest in this issue beyond RTL to 
encompass all forms of extra-legal, extra-judicial detention in China. 
This would include so-called ``black jails'' used to detain petitioners 
and ``soft detention (ruanjin)'' used to keep some people deemed to be 
troublemakers under some form of house arrest. To my knowledge there is 
no legal basis in legislation or publicly available regulations for 
either of these forms of limitations on the liberty of individuals.
    Moreover, there are other specific forms of administrative 
confinement and involuntary treatment and education for drug addicts, 
for those engaged in prostitution and for juveniles who are too young 
to be subject to the juvenile criminal justice system. These include 
custody and education (shourong jiaoyu), used for those involved in 
prostitution and custody and cultivation (shourong jiaoyang), used for 
juveniles under the age of 16, who are exempt from criminal punishment. 
While RTL gets most of the attention, I would urge the United States 
government to also take note of these other forms of detention and 
include them in its efforts to engage with the Chinese government.
    What can the United States do? First of all, China is an 
independent, sovereign nation that has the right to make its own 
decisions and its own laws. However, China is also a prominent member 
of the international community, and, as such, engages with the rest of 
the world through various multilateral and bilateral processes. China 
is a permanent member of the United Nations Security Council. China has 
ratified many international human rights documents. While China has not 
yet ratified the International Covenant on Civil and Political Rights, 
which prohibits arbitrary detention, China has signed it and has 
repeatedly committed to ratifying it in the near future.
    My own view is that all countries, as well as all individuals have 
an interest in upholding international human rights standards and the 
Rule of Law and that there is a constructive role for sovereign nations 
to play with regard to human rights and the Rule of Law in other 
countries as well as within their own. We are all imperfect and we all 
benefit from mutual exchange and oversight.
    The first order of business, however, is to get one's own house in 
order and lead by example. This is not the time or the place to go into 
how the United States could improve its own adherence to international 
human rights standards and the Rule of Law but I think it is fair and 
appropriate to make that a part of the larger discussion. The better we 
do at home the more credibility we have overseas.
    Second, the United States government has many tools at its disposal 
which it can use to voice its concerns to the Chinese government, 
foremost among them the diplomacy conducted on a regular basis by our 
excellent career diplomats. The government can also raise these issues 
during the visits of high level officials and members of Congress, and 
at periodic human rights and legal experts' dialogues, and other high 
level dialogues. Each of these is an opportunity to communicate the 
United States' concern about these issues.
    Third, the United States can support research to help us understand 
the actual situation in China. The government has provided some support 
for research but, speaking very frankly, support for research is not 
robust.
    Fourth, the United States government should continue to support 
expert legal exchanges between non-government actors, including 
academics, practitioners and students. My own view is that those 
programs have been highly valuable in enhancing mutual understanding 
and in improving the Rule of Law and human rights situation in China. 
It is hard to imagine where China would be now had it not welcomed the 
support of the rest of the world, including the United States, or had 
the rest of the world not provided it.
    Every country borrows ideas from other legal systems and China has 
been very active in studying the legal systems of other countries as a 
way to improve its own system. As noted, RTL is a form of arbitrary 
detention. But the reform of RTL raises legitimate questions about how 
to deal with social problems such as minor offenses, drug addiction, 
prostitution and juvenile delinquency in a fair and effective way. 
These are challenges common to many countries, including the United 
States, and we could all benefit from sharing our experiences and best 
practices.
    I should say here that U.S. government support for such exchanges 
is critical. Institutes like the U.S.-Asia Law Institute rely upon 
grant support, including U.S. government grants, to be able to maintain 
our expertise and to engage constructively and productively with 
Chinese partners. Without that support it would be difficult, if not 
impossible, to carry on this work. Our Institute and other 
organizations also commit their own resources to this work but the 
extent of such work is dependent, in part, on the level of government 
support.
    The real question though is how to use these tools effectively. To 
be effective, we need to be persistent, consistent and focus on the 
long term as well as whatever short term goals may be within reach. 
There is a tendency in government to demand short term deliverables and 
outcomes from each meeting, each dialogue and each legal reform 
project. That is understandable from the point of view of 
accountability to taxpayers. However, legal reform and social change do 
not necessarily work on the schedule of diplomats and grant makers. 
Progress takes time and requires a process of exchanging ideas, opening 
minds to new ways of thinking, and assuring policymakers in other 
countries that improving the rights protection of their citizens can 
enhance social stability rather than undermine it.
    Sometimes, in the pursuit of concrete outcomes that we can claim as 
successes we overemphasize the short term at the expense of 
persistence, consistency and the pursuit of long term goals. Our long 
term goal should be to help China meet its own objectives of creating a 
society under the Rule of Law and meeting the obligations China has 
undertaken under international human rights instruments.
    In conclusion, I thank you for the opportunity to share these 
thoughts and I hope you will continue to support efforts to improve the 
Rule of Law and human rights protections in China and in the United 
States.
                                 ______
                                 

                Prepared Statement of Margaret K. Lewis

                              may 9, 2013
    Mr. Chairman and distinguished Members of the Commission, I am 
privileged to be invited to participate in this roundtable and greatly 
appreciate the Commission's efforts to improve American understanding 
of China and the specific issues at hand.
    With respect to our topic today, ``The End of Reeducation Through 
Labor? Recent Developments and Prospects for Reform,'' I am going to 
focus my remarks on the prospects for reform of reeducation through 
labor (RTL). In particular, I have been asked to discuss Taiwan's 
experience in abolishing its RTL analog, how that experience could 
inform the People Republic of China's (PRC) own efforts to reform RTL, 
and recommendations for US policymakers.
    Today, I get to be the optimist and deliver the hopeful story for 
reform. Taiwan's system of reformatory training for people deemed 
``hooligans'' (or ``liumang'' using the Romanization of the Chinese 
term) was gradually reformed in order to restrict police power and to 
offer greater procedural protections before its ultimate abolition in 
January 2009. Reformatory training was formerly a non-criminal 
sanction--hough more accurately understood as a quasi-criminal 
sanction--that allowed police to lock up vaguely described hooligans 
for up to three years.
    By way of general background, from shortly after President Chiang 
Kai-shek's Nationalist Party (Kuomintang or KMT) took refuge on Taiwan 
in 1949 until the mid-1980s, the police wielded tremendous power. 
Throughout the martial law period, the police easily found support for 
their actions in suppression-friendly laws and regulations. Although 
outwardly aimed at hooligan behavior such as gang participation and 
gambling activities, the relevant legal framework also proved itself to 
be expedient for silencing political opponents who did not fit the 
conventional description of hooligans. As with RTL, police unilaterally 
made the decision to condemn hooligans. The punishment imposed on 
hooligans at the time was an extraordinarily harsh military-
administered punishment that could be used to detain perceived 
troublemakers indefinitely.
    Consequently, despite the fact that the KMT had brought with it to 
Taiwan the Republic of China's 1928 Criminal Procedure Code, police 
could easily avoid the judicial process required by the Code. Although 
the KMT's tight grip on the judiciary during the years of martial law 
virtually guaranteed desired outcomes if it chose to invoke the formal 
criminal process, in many cases--especially politically charged ones--
it was more convenient to bypass the judicial system by resort to 
administrative punishments. This experience echoes in the PRC today.
    Following the end of martial law in the late 1980s came a crucial 
transition in Taiwan whereby police powers diminished and judges, 
prosecutors, and lawyers were no longer under tight political control. 
In contrast to the entrenched police repression in the PRC, the past 
twenty years have witnessed a startling transformation of Taiwan's 
criminal justice system. Perhaps the most immediately notable shift was 
the transformation of the draconian, military-run punishment into the 
Ministry of Justice's ``reformatory training,'' a more conventional 
form of imprisonment for which judicial approval, albeit truncated, was 
required in every case and incarceration was limited to three years.
    The waning years of martial law in Taiwan had seen the beginnings 
of judicial involvement in decisions that had formerly been left 
exclusively to the police. Legal reforms introduced the use of special 
``public security tribunals'' within the district courts to determine 
whether alleged hooligans should be incarcerated, but those courts 
provided little check both because of daunting procedural barriers to 
mounting a defense and the courts' general pro-KMT/police propensity. 
Even reforms after the end of martial law changed little with regard to 
procedures with, for example, the tribunals continuing to rely heavily 
on secret witnesses. It was not until Taiwan's constitutional court--
the Council of Grand Justices (the Council)--stepped in that important 
changes began to occur.
    In a series of judicial interpretations) the Council increasingly 
declared unconstitutional portions of the legal regime for dealing with 
hooligans. In the final interpretation issued in 2008, the Council was 
persuaded by several constitutional arguments but called for only 
targeted repeal of unconstitutional provisions rather than requiring 
wholesale repeal of the law. The last interpretation apparently 
persuaded Taiwan's political elite that the special law aimed at 
hooligans was proving to be more trouble than it was worth. After 
President Ma Ying-jeou took office in May 2008 the executive branch 
recommended its abolition. In January 2009, the legislature took the 
unexpected step of repealing the law in its entirety. Four years since 
abolition, I have heard no reports that the public security situation 
in Taiwan has deteriorated because of the law's repeal. In part this is 
because gradual reforms leading to abolition meant that the number of 
people undergoing reformatory training had dwindled. People who 
formerly would have been treated as hooligans were increasingly being 
channeled through the standard criminal process. A sudden shock to the 
system would similarly be politically difficult to accept in the PRC 
and, thus, Taiwan's experience suggests that incremental reforms to RTL 
might allow for a smoother transition than abrupt repeal.
    The gradual decline in the previously unfettered punishment powers 
of Taiwan's police must be viewed within the broader context of reforms 
to the criminal justice system that had gathered strong support. 
Beginning in the late 1990s, Taiwan's Criminal Procedure Code underwent 
seismic changes, even while further reforms to the procedures for 
hooligan cases appeared to stall and those cases remained largely 
behind closed doors without any prosecutorial involvement and using 
heavily truncated judicial proceedings.
    As reforms to the criminal justice system progressed, the 
judiciary, legislature and executive gradually recognized the untenable 
gap between the new procedures applied to ``criminal' cases and those 
used for ``hooligan'' cases. Likewise, the PRC's newly revised Criminal 
Procedure Law includes a number of reforms that are unavailable to 
people facing RTL. Taiwan's experience also underscores that merely 
involving an entity called a ``court'' is insufficient to guarantee a 
fighting chance for the suspect to contest the possible imposition of 
RTL. What is needed is not just more process but rather more meaningful 
process. I am certainly not expecting anything resembling the judicial 
independence we enjoy in the United States to blossom overnight in 
China. Nonetheless, even modest judicial review can encourage the 
police and prosecutors to be more cautious in how they use their 
powers. For example, after Taiwan voided the prosecutorial power to 
detain people without judicial approval in 1997, the courts approved 
the vast majority of detention applications. At first glance, it might 
appear that judicial review served little purpose. However, the advent 
of judicial review also quickly saw a considerable decline in 
prosecutors' applications for detention. In other words, prosecutors in 
Taiwan sought detention far less once they had to go through the courts 
even though the courts rejected few applications.
    Given existing political constraints and other distorting 
influences upon PRC courts, which significantly diminish prospects for 
independent judicial action, it would be unfortunate if the PRC should 
establish the equivalent of Taiwan's ``public security tribunals.'' 
That would impose further restrictions on fair court procedures while 
misleading the public into thinking that adequate court review was 
being granted. It would be far better for the PRe's judicial resources 
to be expanded to assure that, at a minimum, all decisions imposing or 
recommending RTL would receive in practice the same judicial review as 
currently available in principle under the Administrative Litigation 
Law. Giving full force to the procedures provided for in the 
Administrative Litigation Law would be an initial step. A more 
significant step short of abolition would be to recognize that RTL is 
criminal in nature and require that all cases follow the procedures 
laid down in the Criminal Procedure Law.
    In highlighting the ways that Taiwan's past might be helpful in 
charting the PRC's path forward with respect to RTL, I recognize that 
despite shared historical and cultural ties, Taiwan's recent experience 
is far from a perfect blueprint for the future of RTL. Most glaringly, 
since the late 1980s, Taiwan has transitioned to a vibrant multi-party 
democracy and the story of criminal justice reforms are embedded in the 
larger story of this political transition. Moreover) Taiwan's 
constitutional court played a critical role in both drawing attention 
to the human rights abuses involved in reformatory training and forcing 
the legislature to respond. Sadly, the Council has no counterpart in 
the PRC, where the Standing Committee of the National People's Congress 
has the exclusive power to interpret the Constitution but, in practice, 
does not exercise it.
    That said, Taiwan's reform path still has much to offer despite the 
PRC's current political reality. Taiwan's judicial reforms did not 
flourish until the political climate changed. Nevertheless, reforms 
during the martial law era-such as the establishment of the public 
security tribunals-helped lay a foundation for future reforms even 
though the tribunals were heavily flawed from a human rights 
perspective. Likewise, Taiwan's revision to its Criminal Procedure Code 
in 1982 that allowed defense counsel to participate in the 
investigation stage made little difference at the time but was seized 
upon by lawyers in the 1990s as they began to vigorously expand their 
roles in the criminal process.
    Even if it is unlikely that the PRC will directly and swiftly 
follow Taiwan's path by abolishing RTL, Taiwan's experience might at 
least stimulate new thinking and begin to assuage concerns that 
reforming RTL will lead to a deterioration in social order. As a 
possible intermediate step towards abolition, the Taiwan precedent of 
classifying hooligans into two categories and subjecting only those in 
the second, more serious category to incarceration may reduce the 
number of people subject to RTL detention, numbers that have been far 
larger in the PRC than in Taiwan.
    In light of this background, what steps should US policymakers 
take? The US's ability to influence the path of RTL reform is, of 
course, limited. Reform will only happen when the government bodies in 
the PRC that have a vested interest in RTL--particularly the Ministry 
of Public Security--are willing to budge. What the US can do is both 
offer our own experience and serve a coordinating role in helping to 
introduce people in the mainland to Taiwan's experience. As an added 
benefit, although there are differences in legal terminology, the 
shared language between Taiwan and the Mainland allows for a more 
fluid, efficient discussion than is possible through translation.
    The current relatively warm cross-strait relations have opened up 
opportunities for legal exchanges unthinkable in the past. In addition 
to bilateral cross-strait exchanges of scholars and personnel involved 
directly in administering the criminal justice system, I have also been 
involved in successful multilateral conversations that included the PRC 
and Taiwan, along with participants from the US, Hong Kong, Japan, and 
other jurisdictions. These meetings are relatively easy to arrange with 
participants from academia and other non-governmental positions. There 
remain challenges for government personnel from both Taiwan and the PRC 
to physically travel across the strait, though indications are that 
these restrictions are starting to relax. For example, Taiwan's 
Ministry of Justice recently established an Office of International and 
Cross-Strait Affairs. Alternatively, sometimes a third location, like 
Hong Kong, can serve as an easier meeting point. Another option is to 
make greater use of video conferencing capabilities.
    A lack of accurate information regarding our bail system is an 
illustration of how not only cross-strait but also US-PRC meetings of 
legal practitioners and scholars can at least take the concrete step to 
dispel misconceptions regarding our criminal justice system that can 
serve as barriers to reform. I have on several occasions cleared up the 
mistaken belief that, only because the US has advanced technology to 
track people, it is rare for US defendants to fail to appear in court 
and, in contrast, the PRC is not ready for broader use of bail. In 
reality, the US bail system is quite low-tech and failure to appear 
rates are still very low: a recent study by the New York City Criminal 
Justice Agency (CJA) found that, using 2005 data, the failure to appear 
rate in New York City was 16%.\1\ However, CJA found only 7% failed to 
return within thirty days: many defendants miss court dates ``because 
of forgetfulness, illness, inability to find child care or 
transportation, or some other reason related to a disordered life 
rather than a willful attempt to evade justice.''
---------------------------------------------------------------------------
    \1\ New York City Criminal Justice Agency, Inc., A Decade of Bail 
Research in New York City (August 2012).
---------------------------------------------------------------------------
    Careful screening for risk factors at the time of bail 
determinations, not use of high-tech tracking methods, is largely 
responsible for New York's ability to release approximately 78% of non-
felony defendants on their own recognizance without dire consequences 
for public security. I am convinced that the PRC could take steps to 
expand its system of release pending trial, which is at present seldom 
used. Similarly, there is room for creative thinking regarding how the 
prison-like RTL might be converted into a system akin to the US 
probation system that involves a much less severe deprivation of 
liberty. Reform efforts in the US to change our current practice of 
using administrative detention for unwanted immigrants offers another 
interesting point of comparison to the PRC's discussions regarding 
possible changes to RTL.
    This is all to say that both the US's and Taiwan's experiences 
could help the PRC chart a reform path that, while it might not 
immediately abolish RTL, could gradually lead to significant reforms. 
And the time is ripe for these discussions. President Ma Ying-jeou has 
even proposed that the subject of human rights be placed on the cross-
strait agenda. It is increasingly clear that stronger cross-strait 
relations cannot be built on economic ties alone. A meaningful 
discussion of how each side treats people who face criminal, or quasi-
criminal, sanctions is an important next step in exploring prospects 
for the greater mobility of people between the PRC and Taiwan. Although 
the PRC has generally been careful not to impose RTL on visitors from 
Taiwan, the PRC's abolition of that administrative punishment would 
send the island's people a strong signal of legal progress. It would be 
especially comforting to business personnel and other Taiwanese who 
reside on the Mainland.
    Finally, US policymakers can continue to draw attention to the 
PRC's stated goal of ratifying the International Covenant on Civil and 
Political Rights (ICCPR). Although the PRC signed the ICCPR in 1998, it 
has thus far failed to ratify it. RTL stands as a notable barrier to 
ratification because it is difficult, if not impossible, to square the 
lack of judicial procedures for an RTL sentence with the ICCPR's 
requirement that people charged with crimes be afforded a ``fair and 
public hearing by a competent, independent and impartial tribunal 
established by law'' and that they be allowed to examine witnesses 
against them (Art. 14). Even if not labeled by domestic law as a 
criminal charge, a jurisdiction cannot skirt ICCPR protections by 
calling a proceeding ``administrative'' in nature.
    As Xi Jinping and his cohorts begin their terms, I hope that the 
new PRC leadership has the wisdom to see that RTL, like Taiwan's 
reformatory training, should become a relic of the past. Surely there 
are many legal experts across the strait and from the US who are 
willing and able to provide valuable advice on charting a path to an 
RTL-free future. I hope that the US government will support those 
efforts.
    Thank you for the opportunity to present a few thoughts. I look 
forward to our discussion with the Commission.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 

                     Prepared Statement of Harry Wu

                              may 9, 2013
                          introductory remarks
    Thank you for inviting me to speak before the Commission today. As 
a survivor of China's brutal system of forced labor camps, the issue of 
laojiao reform is particularly meaningful to me. Ever since arriving in 
the US in the mid-1980s, I have fought tirelessly to expose the reality 
of forced labor camps in China. The CECC has also played a valuable 
role in raising awareness of this pressing issue, and I am tremendously 
grateful for their work in this regard.
    As you are all aware, Chinese government officials have expressed 
intent to reform the laojiao system. Although I welcome changes to this 
horrible system, we must place proposed laojiao reforms in context. We 
must remember that the laojiao has long been an integral component of 
the Communist Party's efforts to imprison dissidents and maintain 
political stability. In addition, we need to recognize that the laojiao 
is only one part of a larger system of arbitrary detention 
institutions. In light of these realities, we must ask whether proposed 
reforms represent a genuine attempt to align the Chinese criminal 
justice system with international norms or just another effort to 
maintain stability in the face of mounting societal pressure to abolish 
this repressive system.
                    history of forced labor in china
    All authoritarian governments employ repressive tools in an attempt 
to maintain and project power. The Soviet Union relied on the gulag. 
Nazi Germany established a vast network of concentration camps. In 
China, the government has long relied on a system of labor camps to 
jail dissidents who threaten political stability.
    The Chinese government initially established two networks of labor 
camps: laogai camps and laojiao camps. Although conditions in laogai 
and laojiao camps were substantially similar, laogai camps were 
reserved for convicted criminals, whereas laojiao camps served as jails 
for political dissidents and suspected petty criminals. In 1994, 
Chinese authorities proclaimed an end to the laogai system when they 
changed the name of these facilities to ``jails.'' The government 
continues, however, to openly use laojiao camps.
    The origins of Chinese labor camps can be traced to the Soviet 
gulag. In the early 1950s, Soviet security officials helped their 
Chinese comrades design a system of labor camps capable of jailing 
large numbers of dissidents. In addition to isolating troublemakers 
from the rest of society, these camps functioned to transform class 
enemies and criminals into ``new socialist beings'' through a 
combination of hard labor and thought reform.
    Early laojiao camp inmates arrived in three waves: The first wave 
arrived in 1956 and consisted of an estimated 200,000 
counterrevolutionaries. This label was applied to former bureaucratic 
officials under the Nationalist government and others deemed 
counterrevolutionaries during the early years of communist rule. The 
second wave of labor camp inmates took place from 1957 to 1958. These 
prisoners were mostly ``rightists'' who were arrested during the 
``Anti-Rightist Movement.'' The third wave occurred a couple of years 
later and was comprised of millions of peasants who had moved to cities 
from the countryside in search of food and work. Chinese cities were 
unable to cope with this influx of peasants, so the government decided 
to incarcerate these people in labor camps.
    Early laogai inmates were issued sentences of indefinite duration. 
In 1960, however, the government limited laogai sentences to a maximum 
of three years. Despite the imposition of sentencing limits, many 
inmates toiled in laogai camps long after the expiration of their 
sentence.
    Although many inmates remained in labor camps throughout the 1960s 
and 1970s, reliance on the laogai and laojiao as a means to jail 
criminals and dissidents waned during the madness of the Cultural 
Revolution. In 1979, however, Deng Xiaoping reinstituted the labor camp 
system in order to deal with increasing social unrest that accompanied 
economic reforms. At the same time, Deng limited the length of laojiao 
sentences to four years. Prior to 1979, laojiao sentences were of 
indefinite duration.
    Today, an estimated 300-400 labor camps exist in China. These camps 
jail an estimated 200,000-300,000 inmates. Although the Chinese 
government has increasingly used laojiao camps to incarcerate petty 
criminals, a large number of laojiao inmates are petitioners and 
political dissidents. In addition, individuals incarcerated in laojiao 
camps are jailed without trial. Laojiao inmates are forced to perform 
hard labor for long hours and are often subjected to vicious beatings 
and other forms of abuse. In addition to laboring, inmates are forced 
to attend lengthy, daily study sessions during which they are subjected 
political indoctrination. Food rations at laojiao camps are meager, and 
inmates are routinely denied timely medical care.
                    prospects for meaningful reform
    Laojiao camps exist in modern China despite the fact that the 
practice violates protections outlined in the Administrative 
Punishments Law, the Criminal Procedure Law, and the Law on 
Legislation, each of which prohibits the arrest and incarceration of an 
individual in the absence of authorization from the People's Procurate. 
Moreover, imprisoning an individual for exercising fundamental human 
rights undermines protections outlined in the Chinese Constitution. 
Laojiao inmates, however, are incarcerated at the whim of public 
security forces without even the pretense of due process protections, 
often for engaging in constitutionally protected activities. Despite 
these foundational legal protections, Ministry of Public Security 
regulations and State Council decisions provide the hollow legal 
justification for the continued use of laojiao labor camps. This 
supremacy of patchwork regulations over duly enacted laws and 
constitutionally protected rights exemplifies the dominant position of 
public security forces in China's criminal justice system. It is this 
disproportionate power granted to public security forces and their 
mission of maintaining political stability that serves as the greatest 
obstacle to rule of law reform in China.
    In addition to facing resistance from public security forces, 
laojiao reform has been hampered by the reluctance of Chinese 
authorities to formally recognize past oppression perpetrated by the 
Party. Abolishing laojiao camps would vindicate criticism leveled 
against the Party for its historical reliance on labor camps as a means 
to suppress dissent. In addition embarrassing Party leaders, such an 
admission might prompt an influx of lawsuits seeking compensation for 
past labor performed and suffering endured. Despite indicating 
willingness to reform laojiao camps, it is not clear that the Party is 
prepared to accept the consequences of abolishing the laojiao system.
    It is also important to note that the laojiao is only one component 
of China's vast system of arbitrary detention institutions. In addition 
to laojiao camps, authorities imprison individuals in facilities such 
as black jails, psychiatric hospitals, law education classes, military 
prisons, juvenile detention facilities, and the shuanggui system of 
punishment for Party members. Moreover, Chinese courts sentence 
political dissidents to lengthy prison sentences in violation of 
international human rights standards. Although providing a pretext of 
legality, such sentences are often issued in the absence of meaningful 
due process protections. Thus, the reform or even abolition of laojiao 
camps will not alter the arbitrary character of the countless 
politically motivated detentions imposed by Chinese authorities each 
year. Meaningful reform to China's criminal justice system would 
require the creation and empowerment of an independent judicial system 
committed to upholding substantive rule of law principles.
    Instead of signaling an intention to more closely align China's 
criminal justice system with international rule of law norms, laojiao 
reform is likely an attempt to maintain stability in the face of 
mounting societal pressure to end this specific relic of Maoist 
repression. In the end, laojiao reform proposals represent nothing more 
than a substitute for meaningful political change.
                            recommendations
    (1) The US Congress should pass a resolution condemning the laojiao 
system and encouraging the Chinese government to completely abolish the 
use of labor camps to punish non-criminal offenders.
    (2) The US Congress should work to raise awareness of other forms 
of arbitrary detention still in use by the Chinese Communist Party.
    (3) The US Congress should pass a resolution in solidarity with the 
growing international movement to urge the Chinese government to ratify 
the International Covenant on Civil and Political Rights. The ICCPR 
explicitly forbids the practice of arbitrary detention, and China 
signed the treaty in 1998.
                                 ______
                                 

Prepared Statement of Christopher Smith, a U.S. Representative From New 
    Jersey; Cochairman, Congressional-Executive Commission on China

                              may 9, 2013
    Over the past several months, the Chinese government has suggested 
that reforms might soon come to China's brutal reeducation through 
labor (RTL) system. Under the current RTL system, Chinese officials can 
order Chinese citizens to be held in reeducation through labor centers 
for up to four years without a trial or legal representation. There are 
no judges, no defense attorneys, and no prosecutors. If the public 
security forces want to detain an individual for years without any 
judicial review, they have authority to do so. Detainees have little 
recourse.
    China's police forces have used this administrative system for 
decades to target ``minor offenders,'' whose crimes fall beneath the 
threshold of the Criminal Law. And, while the RTL system was created to 
``educate'' minor offenders, Chinese police officials frequently use 
RTL to punish, among others, petitioners, dissidents, drug users, sex 
workers, Falun Gong practitioners, and individuals who belong to 
religious groups not approved by the government. The unchecked 
decisionmaking power has given China's police forces an extra cudgel to 
wield against a range of so-called troublemakers and those brave 
citizens wiling to advocate for change.
    Once held within the RTL system, detainees are faced with a grim 
reality. They are forced to work long hours for little pay, often in 
unsafe working conditions. In addition, the detainees are sometimes 
subject to harassment or torture by officials--and even beatings by 
other inmates seeking shortened sentences. An April 2013 investigative 
article in a Chinese magazine highlighted cruel conditions in one of 
these camps. In the report on the Masanjia RTL detention center in 
northeast China's Shenyang city, ex-detainees described a range of 
abuses, including harsh restraints, electric shocks, extended solitary 
confinement, and forced labor.
    It is a nightmare that tens of thousands of Chinese citizens live 
with every day.
    Of course, China's RTL system is not the country's only forced 
labor camp system. Prison inmates, throughout China, continue to be 
subjected to forced labor and harsh working environments. I recall one 
of my earliest visits to Beijing, where I was able to visit Beijing 
Prison No. 1, one of hundreds of the vast Laogai system, where jelly 
shoes and socks were being made for export. We saw factory workers' 
heads shaved, very gaunt, and at least 40 Tiananmen Square activists in 
large vats with dye all over their bodies. Obviously, the dye is 
penetrating their skin and being absorbed into their systems. And we 
complained to the Administration that we knew, because we brought back 
the socks and the jelly shoes, that were being made by convict labor, 
including political prisoners, and it was showing up on our shores. An 
import ban was imposed and that place shut down, although I am sure 
they just relocated.
    In recent months, stories of harsh work conditions and wrongful 
detentions have sparked public outrage and intensified calls for 
reforms. In response to controversial cases, Chinese citizens have 
taken to the Internet to voice opposition to the RTL system and to the 
corrupt practices. Citizens have also used popular social media and 
microblogging Web sites to express support for those detained unjustly. 
Even China's state-run publications have questioned the RTL system and 
its abuses. In response to the case of a young village official ordered 
to two years of RTL, the Global Times--an official publication under 
the People's Daily--wrote, ``It's worrying that people can still be 
punished for expressing or writing critical thoughts in modern China. 
Ren's case is not an isolated one.''
    Officials appear to be listening. In March, China's new Premier Li 
Keqiang told a press conference in Beijing that RTL reforms may be 
unveiled before the end of the year. Other officials at lower-levels 
have similarly voiced support for RTL reforms or voiced their 
expectations for a timely end to this brutal system.
    Still, today, tens of thousands of people languish in China's 350 
RTL detention centers. Rhetoric is not enough.
    China's new leaders should now act immediately to end reeducation 
through labor for once and for all. And, if they can have the courage 
to end this brutal and senseless system of arbitrary punishment, we 
commend them.
    But, let's not forget: RTL orders are not the only form of 
arbitrary detention in China. Officials routinely use home confinement, 
harassment, torture and unofficial holding centers to silence those 
seeking to advocate for human rights or expose official abuses. Without 
a doubt, the outdated and cruel RTL system should be abolished 
immediately; however, the other forms of arbitrary detention and 
official harassment must end, as well.
    Over the past few months, we have witnessed increasingly loud calls 
for reform and justice throughout China, as citizens have bravely and 
publicly called for an end to this arbitrary system of punishment and 
cruelty. Today, we are fortunate to have four expert panelists who can 
give us further insights into these developments and the potential for 
RTL reform. We look forward to hearing about the prospects for RTL 
reform and for other reforms that could end the arbitrary detention of 
Chinese citizens.

                                 <all>

</pre></body></html>
